<html>
<title> - Oversight of the Army Corps' Management of the Missouri River</title>
<body><pre>[Senate Hearing 115-186]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-186

                      OVERSIGHT OF THE ARMY CORPS'
                    MANAGEMENT OF THE MISSOURI RIVER

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON SUPERFUND WASTE
                        AND REGULATORY OVERSIGHT

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 22, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
  


         Available via the World Wide Web: http://www.fdsys.gov

                               __________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE                    
27-317 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                              ----------                              

 Subcommittee on Superfund, Waste Management, and Regulatory Oversight

                  MIKE ROUNDS, South Dakota, Chairman
JERRY MORAN, Kansas                  CORY A. BOOKER, NEW JERSEY, 
JONI ERNST, Iowa                         Ranking Member
DAN SULLIVAN, Alaska                 BERNARD SANDERS, Vermont
JOHN BARRASSO, Wyoming (ex officio)  CHRIS VAN HOLLEN, Maryland
                                     THOMAS R. CARPER, Delaware (ex 
                                         officio)
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                            AUGUST 22, 2017
                           OPENING STATEMENTS

Rounds, Hon. Mike, U.S. Senator from the State of South Dakota...     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................    38

                               WITNESSES

Ponganis, David, Programs Director, U.S Army Corps of Engineers..     3
    Prepared statement...........................................     5
Harding, Hon. Steve, Mayor, City of Pierre, Pierre, SD...........    20
    Prepared statement...........................................    22
Goodman, Jeanne, Chief Engineer, South Dakota Water Program, 
  Pierre, SD.....................................................    23
    Prepared statement...........................................    25
Lepisto, Paul, Regional Conservation Coordinator, Izaak Walton 
  League of America, Pierre, SD..................................    26
    Prepared statement...........................................    27

 
     Oversight of the Army Corps' Management of the Missouri River

                              ----------                              


                        TUESDAY, AUGUST 22, 2017

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Superfund, Waste Management  
                                  and Regulatory Oversight,
                                                    Washington, DC.
    The following hearing was taken at the South Dakota State 
Capitol, Room 413, 500 East Capitol Avenue, Pierre, South 
Dakota, on the 22nd day of August, 2017, commencing at 10 
o'clock a.m., before Cheri McComsey Wittler, a Notary Public, 
Registered Professional Reporter, and Certified Realtime 
Reporter within and for the State of South Dakota. Hon. Mike 
Rounds (chairman of the subcommittee) presiding.
    Present: Senator Rounds.

            OPENING STATEMENT OF HON. MIKE ROUNDS, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Rounds. Good morning, everyone. Testifying on our 
first panel today is Mr. David Ponganis. He is the Director of 
Programs for the Northwestern Division of the U.S. Army Corps 
of Engineers. He is here with us today, and we're going to 
welcome him.I would like to give an opening statement, and I 
would explain to everybody that the way that this process works 
is that we will also allow statements for the record as well. A 
number of you may very well want to do that. That statement 
time period will be open for a period of two weeks. We'll also 
have statements entered into by a number of other United States 
Senators who wish to have their thoughts included in this 
testimony as well.
    The Environment and Public Works Subcommittee on Superfund, 
Waste Management, and Regulatory Oversight is meeting today to 
conduct a field hearing entitled Oversight of the U.S. Army 
Corp's Management of the Missouri River.
    I'd like to thank our witnesses for being with us today, 
and I look forward to hearing their testimony. It is fitting 
that we would hold this hearing here as we approach the 
bicentennial of the settlement of Ft. Pierre. Since its early 
days as a trading post in the 19th Century, the Missouri River 
has been a vital component of the lives of the people living 
along the riverbank.
    The United States Army Corps is responsible for managing 
the Missouri River in a way that effectively maintains the 
River's eight authorized purposes: Flood control, navigation, 
irrigation, hydropower, water supply, water quality, 
recreation, and fish and wildlife management.The Missouri River 
plays a vital role in the economy and livelihoods of those of 
us living in communities along the River. We depend on the 
River for drinking water, recreation, and agriculture. Proper 
management of the Missouri is an essential component to the 
successes of our cities and towns.Proper management of the 
Missouri requires the Corps to work closely and communicate 
extensively with stakeholders, such as state and local 
governments, and understand the needs of the communities within 
the Missouri River Basin.
    After the 2011 flood in which communities all along the 
Missouri as well as our State Capitol of Pierre suffered 
millions of dollars in damage to homes, city streets, sewage 
systems, and parks, citizens and local government officials 
quickly focused on what steps should be taken to make certain 
this type of destruction never happens again.
    Because one of the driving factors of the destruction was 
the lack of advanced notice to the residents who received less 
than one week to prepare for the rising flood waters, a 2014 
Water Resource Reform Bill, also known as WRRDA, attempted to 
provide the Army Corps with additional resources to increase 
their flood monitoring capabilities. This legislation 
authorized the Army Corps to coordinate with various government 
agencies to administer a soil moisture and snowpack monitoring 
network and maintain snowpack monitoring sites in the Upper 
Missouri River Basin.
    At a March 2016 subcommittee hearing titled Five Years From 
The Flood: Oversight of the Army Corps' Management of the 
Missouri River and Suggestions For Improvement, which we held 
in North Sioux City, we learned that the Army Corps had made 
little progress towards implementation of the snowpack 
monitoring network because they had failed to submit an 
appropriations request to Congress to fund the program. 
Additionally, we learned the Corps was unclear as to what 
agencies should take the lead on implementing the program, 
which also prevented them from moving forward with the snowpack 
monitoring network. As a result of this information, I had 
language included in the 2016 WRRDA bill that directed the U.S. 
Army Corps to be the lead agency for coordinating the soil 
moisture and snowpack monitoring network in the Upper Missouri 
River Basin.
    Additionally, I was able to have an amendment included in 
the 2017 Senate Energy and Water Appropriations Bill that would 
have provided the Corps with $2 million to begin implementation 
of a snowpack monitoring program.
    Throughout the 2017 runoff season there was a noticeable 
improvement in communication between the Corps and stakeholders 
in the Upper Missouri River Basin. I was encouraged to see the 
Corps's effort to hold stakeholder conference calls, public 
meetings, and post regular snowpack level updates on their 
website.
    I look forward to receiving an update from the Corps and 
the state and local governments regarding their views of the 
coordination among stakeholders during this past runoff season. 
The Corps, in conjunction with the U.S. Fish & Wildlife 
Service, is also responsible for administering the Missouri 
River Recovery Program which aims to replace the lost habitat 
of three threatened and endangered species along the Missouri 
River. The program seeks to coordinate with local stakeholder 
groups, in particular the Missouri River Recovery 
Implementation Committee, to develop sandbar and wetland 
habitat to conserve the pallid sturgeon, the least tern, and 
the piping plover.
    A more recent issue we have been confronted with has been 
the rapidly rising and falling water levels in Lake Sharpe that 
have occurred over the past several months. These fluctuating 
water levels have been responsible for property damage, and 
there are concerns this may also impact the fish spawn that 
recreational fishermen along the Missouri depend on for a 
successful fishing season.
    I hope to hear from the Corps that these water releases are 
being done responsibly and with consideration of the various 
interests along the River. A healthy, well managed Missouri 
River is critical to the communities surrounding it. Today we 
will hear testimony from both the U.S. Army Corps and state and 
local government officials on the status of the management of 
the River and any potential improvements that can be made to 
better meet the needs of both of surrounding communities and 
the Corps.
    Each witness will have five minutes to present their 
testimony, and I will follow up with questions to the 
witnesses. I'd like to again thank our witnesses for being with 
us today, and I look forward to hearing their testimony. I will 
also share, once again, that their full statements will be made 
a part of the record of the meeting.
    And, with that, I will simply say to Mr. Dave Ponganis, 
welcome once again. We had a good chance to visit with you at 
the previous meetings, and we look forward to hearing your 
thoughts today. Before I have Mr. Ponganis begin, I just wanted 
to take a moment to acknowledge Ms. Jodi Farhat who is with us 
today. As she nears her retirement from the federal service 
this September, Jodi has served our region in the nation for 34 
years.
    For the past eight years she has been the Chief of the 
Missouri River Water Management for the Northwestern Division 
of the Army Corps. Jodi has been responsible for the regulation 
of the Missouri River Mainstream Reservoir System by directing 
water releases to make certain all congressionally authorized 
purposes were served. Most recently, Jodi spearheaded the 
Corps' efforts to institute monthly updates with the region on 
projected runoff conditions, status of mainstream reservoirs, 
and scheduled releases to improve the transparency of 
operations and communications with the public.
    Jodi, I've had a flag that's being flown over the United 
States Capitol to commemorate your years of service which you 
will receive within the next few weeks. Again, thank you for 
your years of service to this Nation, and enjoy your well-
ordered retirement. Mr. Ponganis, whenever you are ready to 
begin, you may begin your testimony.

 STATEMENT OF HON. DAVID PONGANIS, PROGAMS DIRECTOR, U.S. ARMY 
                CORPS OF ENGINEERS, POTLAND, OR

    Mr. Ponganis. Thank you, Chairman Rounds. I am Dave 
Ponganis, Programs Director of the Northwestern Division of the 
U.S. Army Corps of Engineers. I am pleased to be here today to 
discuss the Corps' operations of the Missouri River and the 
status of the Missouri River Recovery Program.
    As you mentioned, the Missouri River Mainstream System is 
comprised of six multipurpose dams and reservoirs, which 
include hydroelectric power plants and recreational areas. The 
Corps also operates and maintains a 735-mile navigation channel 
downstream of the six dams from Sioux City, Iowa, to the mouth 
near St. Louis.
    The Corps manages this complex and extensive system for 
eight Congressionally authorized purposes, as you mentioned all 
eight of those. Cycles of flooding and drought have always been 
a major part of the Missouri River Basin hydrology. The 2011 
flooding was the result of unprecedented hydrologic events. 
Heavy snowpack in the mountains and on the plains of the basin 
during the winter combined with record rainoff [sic]--fall in 
May and June over much of Montana, North Dakota, and South 
Dakota resulted in the extraordinary flood event of 2011. But 
despite the record runoff in 2011, the pendulum swung the other 
way in 2012 as a drought sped throughout the basin.
    Runoff in the upper basin was less than one-third the 
amount recorded in 2011. This year in 2017 we have again 
experienced both extremes but this time in a single year. Heavy 
snow accumulated on the plains early last winter, and yet -and 
snowpack, especially in Yellowstone's basin, surged, and the 
forecast indicated potential for another high runoff year. But 
then the snow on the plains tapered off and melted in orderly 
fashion in late February, and the flood risk began to diminish. 
Mountain snowpack peaked near average in the reach above Fort 
Peck and much above average in the Yellowstone basin. By the 
time it melted and entered the reservoir, drought had developed 
across the plains. And now in mid-August concerns have turned 
to drought that is intensifying every day across eastern 
Montana and the western and central Dakotas. While there is now 
a drought in portions of the basin, water levels in the 
reservoirs are sufficient to serve the authorized purposes at 
this time.
    And, most important, all water stored in the annual flood 
control pools will be evacuated by the start of next year's 
runoff season, reducing flood risk in this ever changing 
region. Following the flood of 2011, the Corps set up an 
external technical review panel to assess the Corps's operation 
of the system prior to, during, and after the 2011 flood event. 
The independent panel recommended infrastructure investments to 
ensure the flood release spillways and tunnels are ready for 
service and our levies are in good condition. That work is 
essentially complete. The Corps works closely with both the 
federal agencies that produce water supply forecasts. Post 2011 
the Corps worked with the National Weather Service, the Natural 
Resource Conservation Service, and the states to share existing 
data. Working with them, we have also developed a joint 
proposal for a comprehensive plains snowpack and soil moisture 
monitoring network for the upper plains. The Corps has also 
enhanced its coordination with tribes, state, and local 
government officials and other agencies during the period of 
heightened flood risks, including these monthly basin updates. 
In the following meeting with you in January,
    Mr. Chairman, the Corps initiated a weekly update which is 
posted on our website each Tuesday providing stakeholders a 
clear, concise report on the snowpack, reservoir conditions, 
and other critical information. Thank you for that suggestion. 
We are hopeful that the improvements in runoff forecasting and 
sharing of critical data will provide even greater lead time 
for flood events resulting from high plains and mountain 
snowpack, although, unfortunately, they will have little impact 
on the more typical rainfall flooding, which is most common in 
the lower basin. Finally, the Corps is reviewing comments 
received from the public on the Draft Missouri River Management 
Plan EIS. We received over 450 comments. We're now reviewing 
those. And we're going to go through a process with input from 
the region through the Missouri River Recovery Implementation 
Committee. This concludes my testimony. Thank you for allowing 
me to testify about the ongoing operation of the Missouri 
Mainstem Reservoir System and the Missouri Recovery Program. I 
would be happy to answer any questions you may have.
    [The prepared statement of Mr. Ponganis follows:]

  Statement of Paul Lepisto, Regional Conservation Coordinator, Izaak 
                  Walton League of America, Pierre, SD

    Chairman Rounds, I am David Ponganis, Programs Director of 
the Northwestern Division of the U.S. Army Corps of Engineers 
(Corps). I am pleased to be here today to discuss the Corps' 
operations of the Missouri River and the status of the Missouri 
River Recovery Program.
    The Missouri River Mainstem Reservoir System (System) is 
comprised of six multipurpose dams and reservoirs, which 
include hydroelectric power plants and recreational areas. The 
six dams on the mainstem of the Missouri River form the largest 
system of reservoirs in the United States. The Corps also 
operates and maintains a 735-mile navigation channel downstream 
of the six dams, from Sioux City, Iowa to the mouth near St. 
Louis, Missouri; and works with levee sponsors who maintain 
hundreds of miles of Federal and non-Federal levees along the 
river.
    The Corps manages this complex and extensive System for 
eight congressionally authorized purposes: flood risk 
management, navigation, hydropower, municipal and industrial 
water supply, water quality control, recreation, irrigation, 
and fish and wildlife. The Missouri River Master Manual is the 
Corps manual that guides the operating regime of the reservoirs 
under a wide range of water conditions (years of drought, years 
with flood conditions, and normal rain years) consistent with 
the authorized purposes. In addition, operation of the System 
must also comply with other applicable Federal statutory and 
regulatory requirements, including the Endangered Species Act.
    Cycles of flooding and drought have always been a major 
part of the Missouri River Basin hydrology. The 2011 flooding 
was the result of unprecedented hydrologic events. Heavy 
snowpack in the mountains and on the plains of the basin during 
the winter, combined with record rainfall in May and June over 
much of Montana, North Dakota and South Dakota, resulted in the 
extraordinary flood event of 2011. Runoff above Sioux City, 
Iowa, totaled 62 million acre feet compared to the normal 25 
million acre feet, more than double the average and the highest 
on record, requiring record releases from all six mainstem 
dams.
    Despite the record runoff in 2011, the pendulum swung the 
other way in 2012 as flash drought spread throughout the basin. 
Runoff in the upper basin was less than one-third the amount 
recorded in 2011. Inflows to the reservoirs dwindled as the 
drought expanded across the upper basin. As the tributaries of 
the lower basin dried up, the Corps made above normal releases 
from the mainstem reservoirs to serve navigation and water 
supply users downstream. The combination of low inflows and 
high releases drafted more than 8 million acre feet of water 
from the System in 2012. Reservoir levels at the three largest 
of the Corps dams (by storage capacity)--Garrison, Oahe, and 
Fort Peck--declined to levels between 8 feet and 14 feet into 
the conservation pool, leading to requests by upper basin 
stakeholders for drought conservation. Fortunately, that 
drought was short-lived and reservoir levels rebounded in 2013 
and 2014.
    This year, in 2017, we have again experienced both 
extremes--but this time in a single year. Heavy snow 
accumulated on the plains early last winter, an ominous sign 
for citizens of the basin with fresh memories of the record 
flood of 2011. Mountain snowpack, especially in the Yellowstone 
basin, surged and the forecasts indicated the potential for 
another high runoff year. But then, the snow on the plains 
tapered off and melted in an orderly fashion in late February, 
and the flood risk began to diminish. Mountain snowpack peaked 
near average in the reach above Fort Peck, and much above 
average in the Yellowstone basin, but by the time it melted and 
entered the reservoir drought had developed across the plains. 
And now, in mid-August 2017, concerns have turned to the 
drought that is intensifying every day across eastern Montana 
and the western and central Dakotas, which is now an extreme 
drought to an exceptional drought in portions of those states 
according to the U.S. Drought Monitor.
    Runoff from the plains and mountain snowpack this year 
captured by the mainstem reservoirs is now providing excellent 
recreational opportunities both at the reservoirs and on the 
river reaches between them. Reservoir levels are sufficient to 
allow normal access for users to withdraw water for irrigation 
and for municipal and industrial purposes; and the Corps is 
making releases to serve navigation and other downstream uses, 
while generating hydropower. We are also operating the System 
to support fish and wildlife needs along the main stem of the 
Missouri River, including during the nesting seasons for the 
endangered interior least tern and the threatened piping 
plover, which are now winding down.
    Hence, the reservoirs have served both to reduce the flood 
risk and to dampen the impact of drought in the region this 
year. While there is now a drought in portions of the basin, 
water levels in the reservoirs are sufficient to serve the 
authorized purposes at this time. And most important, all water 
stored in the annual flood control pools will be evacuated by 
the start of next year's runoff season, reducing flood risk in 
this ever changing region.
    Following the flood of 2011, the Corps set up an external 
technical review panel to assess the Corps' operation of the 
System prior to, during, and after the 2011 flood event for the 
purpose of gaining lessons learned and recommendations to 
improve future operations. The independent review panel 
recommended infrastructure investment to ensure that the flood 
release spillways and tunnels are ready for service and that 
our levees are in good condition. That work is essentially 
complete.
    The independent panel also recommended that the Corps 
conduct several studies on the operation of the System. The 
2011 flood was a historical event that provided a new ``data 
point'' to incorporate into the tools used to predict, monitor 
and manage this System. The Corps is incorporating the 
information and lessons learned from the 2011 flood event into 
the models and tools we use to manage Missouri River 
operations.
    The Corps works closely works with the Federal agencies 
that produce water supply forecasts. Post 2011 flood, the Corps 
has worked with the National Weather Service, the Natural 
Resource Conservation Service, and the states to share existing 
data. Working with them, we also have developed a joint 
proposal for a comprehensive plains snowpack and soil moisture 
monitoring network for the upper plains.
    The Corps has also enhanced its coordination with Tribes, 
State and local government officials, and other agencies during 
periods of heightened flood risk including monthly basin update 
calls leading up to and during the peak runoff season to ensure 
awareness and two-way communication of potential flood risk. 
These calls include staff from the National Weather Service and 
are recorded and available online through the Corps web site.
    And following a meeting with you in January, Mr. Chairman, 
the Corps initiated a weekly update which is posted on our 
website each Tuesday, providing stakeholders a clear, concise 
report on plains and mountain snowpack, reservoir conditions 
and other critical information to ensure public awareness of 
basin conditions. Initially we planned to suspend the weekly 
updates until next year once the flood threat diminished, but 
as a result of the overwhelming positive response, the update 
has become part of our normal business process and will 
continue year-round. Thank you for that suggestion.
    We are hopeful that improvements in runoff forecasting and 
sharing of critical data will provide even greater lead time 
for flood events resulting from high plains and mountain 
snowpack, although unfortunately they will have little impact 
on the more typical rainfalldriven flooding which is most 
common in the lower basin.
    Finally, the Corps is reviewing comments received from the 
public regarding the draft Missouri River Recovery Management 
Plan-Environmental Impact Statement (EIS) as it moves toward 
preparing a final EIS.
    The draft EIS examined alternative ways to manage the 
Missouri River Recovery Program to meet the Corps' obligations 
under the Endangered Species Act for the river's threatened and 
endangered species--the pallid sturgeon, interior least tern, 
and piping plover--while allowing the Corps to operate the 
river for the benefit of residents and businesses of the basin.
    The Corps received approximately 450 comments on the draft 
EIS via public meetings, mail, and online comment forms. 
Comments were received from members of the public, businesses, 
non-governmental and civic organizations, Federal, State and 
local governments, and Tribal governments. The final EIS will 
include a comment response report index, which will State how 
the Corps addressed the comments on the EIS.
    While the Corps is reviewing the public comments, it is 
also conducting government-togovernment consultation with 
Native American Tribes and is consulting with the U.S. Fish and 
Wildlife Service (USFWS) to develop the Biological Assessment 
for formal Endangered Species Act Consultation. Due to ongoing 
consultation, it is too early to know how this process will 
impact the final EIS. After receiving the Biological 
Assessment, the USFWS will prepare a Biological Opinion, and 
then the Corps will issue a final EIS and Record of Decision 
with its selected alternative.
    This concludes my testimony. Thank you for allowing me to 
testify about the ongoing operation of the Missouri River 
Mainstem Reservoir System and the Missouri River Recovery 
Program. I would be happy to answer any questions you may have.

    Senator Rounds. Thank you, Mr. Ponganis. Let's just begin. 
Recently there's been an increasing conversation regarding the 
safety and maintenance of the U.S. Army Corps dams across the 
United States. Can you provide us with a status update 
regarding the safety and maintenance needs of the dams along 
the Missouri River?
    Mr. Ponganis. Yes, sir. Post 2011 flood event, we did 
receive supplemental funding from Congress. And, as I mentioned 
in my testimony, all but a few things have been repaired from 
that flood event. There's a few--still existing work at the 
spillway gates at Garretson. But other than that, everything 
that we have experienced damage from that event has been 
repaired. The levies, of course, they have ongoing 
circumstances, and we look at those every year and where 
necessary do provide for repairs.
    Senator Rounds. In your testimony you discussed the 
differences in management of the Missouri River in periods of 
heavy rainfall and in periods of drought. As you know, South 
Dakota is experiencing a severe drought this year. Can you 
elaborate on what we can expect to see in terms of different 
management of the River system as the Corps corresponds to the 
drought we're experiencing and how this drought will impact 
flood risk in 2018?
    Mr. Ponganis. So from this year as we started the year off 
we did have a little heavy snowpack. Throughout this runoff 
year would be about 120 percent of normal. Sufficient water has 
been--we captured that water in the reservoirs and the flood 
pool, and we're evacuating that water. We'll be releasing about 
a little over 30,000 for the remainder of the season through 
December, and that will put us right where we want to be at the 
top of the conservation pools starting next year's flood event, 
sir.
    Senator Rounds. In your testimony you discussed the 
independent review panel that was convened following the 2011 
flood. This technical panel recommended infrastructure 
investment to prevent future flooding and make sure the levies 
are in good condition. You say the Corps has essentially 
completed this work. Can you elaborate on what the panel 
recommended and what work the Corps has been doing in response 
to their recommendations?
    Mr. Ponganis. So there were several recommendations about 
the infrastructure itself. There was--they wanted us to look at 
the gates and their structural integrity and also the 
spillways. They did want us to look at the levy system 
downstream and do the repairs. As I mentioned, there was a lot 
of damage at one of the spillways at Fort Peck so we looked at 
each dam, did an inventory of the potential damages that did 
occur through the supplemental funding. We got the contracts in 
place, and the repairs have been made.
    Senator Rounds. In your testimony you mentioned the work 
the Corps is doing with the Natural Resources Conservation 
Services and the joint proposal you have developed for a 
snowpack and soil moisture monitoring program in the upper 
plains. The 2014 Water Resources Development Act, also known as 
WRRDA, authorized the creation of the program in response to 
the 2011 flood. At a 2014 hearing I held in North Sioux City 
you testified that one of the reasons the program had been so 
slow to develop was because the Corps was unclear as to which 
agency should take the lead in managing the program. After 
hearing your testimony I had language included in the 2016 
WRRDA bill that directed the Army Corps to be the lead agency 
in the development of snowpack and soil and moisture monitoring 
programs. Since the passage of this legislation has the Corps 
followed this directive and become the lead agency in 
developing the soil and snowpack monitoring program, and can 
you give me a status report on the program?
    Mr. Ponganis. As you mentioned, Chairman Rounds, in the 
Senate markup of our appropriations for FY '17 there was $2 
million that we were going to use to initiate that effort. 
Unfortunately, that did not appear in the final FY '17 
appropriations. We would be hopeful that in FY '18 we would get 
direction to do that. We do have capability to start that work 
and work with the other agencies to develop a plan. And we 
looked at this back in 2013. I think there's been a lot of 
improvements since then on what kind of monitoring can be done. 
I think we need to refresh that plan, sir, and to get some 
funds to start that would be the best step forward.
    Senator Rounds. I'm increasingly concerned about the rapid 
change in the water levels in Lake Sharpe. And there are 
certain other areas along the Missouri as well. In some 
instances the water level is fluctuating several feet 
overnight. These extreme changes in water level have damaged 
property along the Missouri, and I have concerns that it is 
also impacting wildlife that depend on a steady water level to 
survive. Can you tell me who is making these decisions for 
these releases and how these releases fit into the flood 
control plan?
    Mr. Ponganis. So, sir, as--you may know, that we, the 
Corps, looks at how much water is released for all project 
purposes. One of those project purposes is hydropower 
generation. When we provided Western Area Power Administration 
the guidelines, if you will, for daily releases within that 
they have--they have the ability to fluctuate the power plant. 
So on average we ask them to provide, let's say, 30,000 out of 
Oahe. They have the ability to go higher or lower than that as 
demand for electricity increases or decreases throughout the 
day. So it's up to Western Area Power to manage that electrical 
grid and provide for load. So they do fluctuate, and that's 
what we see down here is the releases out of Oahe being from 
peaking the hydropower plants to provide for load for when the 
lights turn on during the day and your cycles there over the 
week.
    Senator Rounds. This is kind of a--and this is an 
opportunity to share this with the public in this part of the 
area because this is a change in the way the water levels have 
moved compared to previous years. There are some days here in 
which you're releasing 58,000 cubes, cubic foot per second, and 
at other times I suspect you're down under 9,000 cubic feet per 
second in the same 24-hour period. Now while you may be 
averaging that out at 30,000 cube feet per second, when you 
maximize that and minimize that it would seem to me that there 
would be impact not only on wildlife but property in the area. 
Now I understand the goal here is to stay within a maximum and 
a minimum parameter of some sort, but when there is clear 
evidence that this is at very high levels compared to what 
we've seen in the past, is there a monitoring system in place 
to make sure that you're not exceeding your upper levels that--
in terms of the property damage that could be occurring because 
of that very high maximum rate for short periods of time?
    Mr. Ponganis. They do have to stay within the stage 
elevations at the maximum--that we have set for flood stage. 
And they are below those. Historically, if you look at the 
graphs over the last 20 plus years, the last 10 years don't 
have as many peaks--as high a peak as maybe the last historical 
record would show. So whereas maybe we haven't experienced and 
seen that here recently, if you look at the history behind it, 
Mr. Chairman, there has been periods where it has even exceeded 
what we've seen the last 10 years. But they have not and they 
do not go above the flood stage elevation.
    Senator Rounds. Is there any evidence or has there ever 
been a study done with regard to what this does to our 
fisheries in the Lake Sharpe area when we're raising and 
lowering them like that? And does that have any bearing on the 
ability of the WAPA to determine on a daily basis what that 
water level is?
    Mr. Ponganis. Sir, I'm not aware of any.
    Senator Rounds. Would you take it for the record, please.
    Mr. Ponganis. I'll take it for the record and get back to 
you, sir.
    Senator Rounds. Thank you.In addition to my concerns about 
the wildlife and the property along the River, I'm concerned 
that the drastic fluctuations in the water levels will impact 
canal walls when the soil behind the walls becomes saturated 
and the tieback systems that keep these walls upright is 
weakened.Has the Corps considered the impact that these water 
releases will have along canal walls along the River? And would 
the Corps consider spreading the water releases out over 
several hours rather than the dramatic changes we're seeing 
overnight?By that, I'm thinking specifically I've seen it 
myself where literally the water is over the top of the 
seawalls or the water--the actual vertical embankments that 
have been placed in a number of the residential regions in the 
Lake Sharpe region for certain, which they're actually above 
those walls.
    And what's happening is that when the water is moving up 
and down as quickly as it is, it's not only saturating the 
ground behind it but now that ground, when it's rapidly coming 
back down, those walls are now at risk because that heavy water 
laden moisture of soil behind it and the weakening of ties that 
are in there are now beginning to move those walls. Is the 
Corps aware of that?
    Mr. Ponganis. Sir, we're going to have to get back to you 
on the specifics in this area.I know in general we do take that 
into consideration when setting what we call ramping rates, how 
fast you can go up or how fast you can go down in terms of 
releases or how fast we can drop a reservoir because of the 
same -So I know that's a concern that we have nationally. I 
just don't have the specifics here, sir, but we'll get back to 
you on that.
    Senator Rounds. Okay.Is there a--is there a maximum amount 
of power which is available for production on each of these 
dams in terms of transmission capabilities? What I'm curious 
about is, as I understand it, there's a limited amount of 
transmission capability, and it is shared between the 
production on the mainstem dams of the Missouri and also other 
types of renewable energy sources, such as wind power.With the 
development and increasing use of wind power, particularly in 
the Upper Midwest, are we sharing those limited transmission 
resources between the two?
    Mr. Ponganis. That would be a question for Western Area 
Power Administration, sir, but I am generally aware of the 
issues surrounding that. There are many issues with the 
integration of like wind, which has a more variable output and 
how you, if you will, backstop that with other low generating 
resources like a hydropower facility.So there's a whole bunch 
of issues surrounding that, sir, and I think having some 
discussion with the Western Area Power on the transmission side 
and how they balance that would be worthwhile.
    Senator Rounds. Is it true or is it your understanding--as 
the Corps responsible for the operation of the actual 
generating facilities and so forth, is it true that the ability 
for a--a demand for power in a very short term is handled very 
well by hydroelectric generating capacity as compared to other 
types of generating systems?
    Mr. Ponganis. Yes.
    Senator Rounds. In other words, you can turn it on and turn 
it off very quickly so when the demand is out there, if they 
need demand right now, thatdemand can come online very quickly 
using hydroelectric power.
    Mr. Ponganis. Yes. Compared to other generating resources 
like a thermal plant, yes.
    Senator Rounds. And so since normally in the past we've had 
firm power that we sometimes used--we used coal-fired plants in 
the past--we're using less of that power and we're using more 
renewable sources throughout the Upper Midwest. Is that a fair 
statement?
    Mr. Ponganis. I believe so, sir.
    Senator Rounds. And so with those other renewable resources 
that are perhaps more inconsistent than firm power is, the 
demand from on-demand power coming from hydroelectric plants is 
perhaps greater today than it has been in the past?
    Mr. Ponganis. As a general statement, I believe so. Yes, 
sir.
    Senator Rounds. Would that not suggest that perhaps there 
needs to be a review of the guidelines for how the use of 
hydroelectric power is generated and how that fits in with 
regard to the other expected requirements for management of the 
Missouri River such as flood control?What I'm suggesting is 
this: We now have a new demand for hydroelectric power because 
it fits very well with renewable resources that are perhaps 
inconsistent in their delivery of power. And yet at the same 
time we have a transmission system which shares both 
hydroelectric and other types of power.
    While you have an obligation to get a certain amount of 
water out just because the amount of water in and amount of 
water out on an annual basis has got to pretty much average, 
you've got times which they are demanding a huge amount because 
it fits well into the shortfall of a renewable source, such as 
wind power at times, and at the same time you need to release 
enough water to make sure that the dams are in an appropriate 
fashion to handle any possible additional snowfall the 
following year. Is that a fair analysis of what you find today?
    Mr. Ponganis. Yes. And, you know, because we have multiple 
avenues to release water through the power plant, we have the 
regulating outlets. We have the spillways. So if there ever is 
a situation where we--the power demand is not there to use the 
power plant, we do have other means. But it is that balancing 
act that we try to go through the year in.
    Senator Rounds. I'd like to follow that up a little bit. 
Are there any plans right now to open up any of the bypass 
spillways, the tunnels as we call them out here, to avoid or--
because of the fact that there may not be the need for 
generation or the ability to generate through the power plant 
or you may -Do you have any plans to open up the tubes to 
bypass the generating facilities in any of the mainstem dams at 
this time?
    Mr. Ponganis. Not at this time, sir, no.
    Senator Rounds. So you believe the 30,000 average coming 
through right now will bring you back down out of the flood and 
normal operating ranges by what time this year?
    Mr. Ponganis. By December, sir.
    Senator Rounds. By December. And that's based upon 
averaging out 30,000 cubes?
    Mr. Ponganis. Yes, sir.
    Senator Rounds. Are there--right now what I'm seeing and 
what I'm hearing in the local area, and once again as much of 
an educational process as anything else, it seems to me that 
the demand for hydroelectric usage in conjunction with new 
forms of power as they come online has perhaps created the need 
for a review of how fast these generating facilities should be 
increased and decreased so that we're not causing undue 
problems with regard to wildlife by major fluctuations and also 
with regard to property damage possibilities where if you are 
at 58 to 60,000 cubes coming through here and if you are over 
those seawalls, assuming those seawalls were built to an 
anticipated level for normal operating, it seems to me that 
maybe that's an area that we should pursue or at least look at 
as to whether or not those regulations and understandings with 
WAPA are, number one, being handled appropriately now and 
whether or not there needs to be additional guidelines laid out 
for that movement up and down. And I'd like your thoughts on 
that, if you could. Recognizing we're getting into policy area, 
but I'd like your thoughts.
    Mr. Ponganis. From a general perspective--not maybe 
specific to the Missouri, sir, because there's a lot of 
different basins around this country that have these issues.And 
as you see the renewable resources--wind, solar--come online, 
the energy market, the transmission system, is being challenged 
from what it used to be, as you said before, as a lot of base 
load.
    And so what you see across the country is -especially 
because of the hydropower facilities can, as you say, respond 
quickly to those changes from those other generation resources, 
you do see the demand for the use of these hydroelectric 
facilities to turn on and off more often.What that means to the 
project itself is you start seeing more wear and tear, more 
demand for more maintenance because they're--you know, it's 
like starting and stopping an engine. Like in your car. If you 
run it steady load for a while versus the stop and -start and 
stop traffic in the city, it takes the wear and tear.
    So across the country I've seen--from my standpoint, seen 
that occurring. And we respond to that. Of course, we--we do 
our annual inspections. But I do see that--an increasing 
trendline on the demand for some maintenance because of that.
    Senator Rounds. So not only could we have a possibility of 
having problems with wildlife that we really don't have an 
answer to right now, and we know that we've got issues at least 
in the local area here in the central part of South Dakota with 
regard to property that has most certainly been impacted by the 
increasing and decreasing on a daily basis of significant water 
flows, but you're also indicating that there has been on the 
part of the maintenance and the operations of the facilities 
themselves a change that you're seeing in terms of maintenance 
needs based upon the turning on and turning off of these 
facilities on an inconsistent basis during the same time 
period. Is that what I'm hearing?
    Mr. Ponganis. From a national scale, sir, yes.
    Senator Rounds. Would you say that that national scale 
would be any--would it be any different locally on the 
hydroelectric dams on the mainstem of the Missouri River than 
what you've seen on a national scale?
    Mr. Ponganis. It depends on the plant and where it fits in 
within the transmission system. Certain power plants are more 
important from a power perspective where they stand against the 
transmission system in their ability to help balance that. So 
it is site specific, sir, and would tend to require that we 
look at that on an individual basis.
    Senator Rounds. Is it true that the most valuable 
electrical production is production which is available on an 
immediate on-demand basis?
    Mr. Ponganis. It's my understanding that is -yes.
    Senator Rounds. So for Western Area Power Administration 
whose responsibility it is to maximize the output of power, as 
I understand it, in a cost-effective manner, for that 
organization this is a money-making opportunity to provide 
power when it is most needed, which is at high demand times.
    Mr. Ponganis. And I firmly believe, sir, that Western Area 
Power Administration is there to meet the regional load, 
regardless of the economics surrounding it. That's their 
charge. And I think they try to do that job very well.
    Senator Rounds. So but they will have to follow within 
guidelines that are laid out under the management plan for the 
Missouri River; correct?
    Mr. Ponganis. Yes.
    Senator Rounds. So if there was a place that we go to 
assure that there is a reasonable expectation as to water 
levels, based upon what we're listening today in terms of--and 
what we're learning today in terms of impacts on the dam 
facilities themselves, and the fact that we've asked for 
information on the impact on the fisheries in the area and the 
wildlife in the area and also based upon what we clearly can 
see here as property damage that occurs, it seems to me that 
unless there is a guideline, they have unfettered access to a 
minimum and maximum production capabilities of each of the 
mainstem dams that may have to be revisited. Are you aware of 
anything that would--anything incorrect in my statement?
    Mr. Ponganis. No, sir.
    Senator Rounds. Okay. Thank you. Let me move on a little 
bit. We've heard from a number of individuals who have 
appreciated the increased communication between the Corps and 
the stakeholders regarding snowpack levels and flood risk along 
the Missouri. Can you give me your assessment of the changes 
that you've made regarding the public awareness this past flood 
season and the improvements or changes that you think can be 
made in 2018?
    Mr. Ponganis. So, sir, during the 2011 flood event the--it 
was well recognized that communication on the operation of the 
system with the public is extremely important. Out of that we 
started monthly calls starting in the January time frame 
typically through June, July, where we had those updates. I 
think it was based upon the conversation you had with Jodi and 
Colonel Henderson at the time in January where you suggested 
that we try to do that on a more frequent basis that we started 
a weekly web posting of information. And that was supplementing 
our monthly calls. And we're going to continue to do that 
through -through the year. It's just another way to be 
transparent in our operations. I think that has greatly 
improved the communication. And, as I said, we'll continue to 
do that as we go finish off this year and start 2018.
    Senator Rounds. Okay. Can you tell me the status, Director 
Ponganis, on the--the status of the Real Estate Guidance Policy 
Letter No. 26 and the proposed rulemaking, Use of Army Corps of 
Engineers Reservoir Projects For Domestic, Municipal, and 
Industrial Water Supply?Director Ponganis, can you explain to 
me the rationale behind the Corps not recognizing the State's 
right to manage the natural flows of the Missouri that appears 
to be found within your Guidance Policy Letter No. 26. Are you 
familiar with what I'm talking about?
    Mr. Ponganis. Yes, sir.
    Senator Rounds. Had more than one communications about it?
    Mr. Ponganis. Yes, sir.
    Senator Rounds. Talk to me about it.
    Mr. Ponganis. This has been an evolving situation within 
the Corps over the last several years, as you know, Senator. 
The issue is to get an easement across Corps property for a 
water right holder to get to the water. The regulations, as 
they were written, indicate that to get that easement that 
you'd have to enter in for a contract on storage.The guidance 
that we have on that falls into two different laws, surplus 
water in Section 6 and permanent rights under Water Supply. 
There is a rulemaking ongoing. As a matter of fact, the 
rulemaking comment period was just extended this week--last 
week, end of last week, beginning of this week. It was about to 
end but has been now extended through November I believe it's 
18th, 2017. That information will come out here shortly on a 
news release.
    That was to lay out a more consistent national policy on 
how to approach this issue. But, again, that's still in the 
works. Until then we are working on an individual basis. If a 
water right user, holder, comes in and wants to do that, we 
take that individual request and we have to go up to our 
headquarters over to the Assistant Secretary of the Army's 
Office for approval to enter into those contracts and 
easements. And per WRRDA, for the next now about eight years 
there will be no charges on that--on those contracts.
    Senator Rounds. The reason why we ask, and we're going to 
have testimony from the mayor of Pierre shortly, the City of 
Pierre has been undertaking a burdensome permitting process in 
order to obtain an easement to cross Corps land to have access 
to the River. The Corps is requiring the City to obtain a 404 
Permit and has requested additional information from the City 
which will cost them literally thousands of dollars in 
engineering studies. It appears as though the Corps has either 
made this into an extremely burdensome process as to avoid or 
at least to delay the implementations of these easements.
    And most certainly it appears as though the Corps has taken 
the position that although our state law clearly has issued a 
permit so that we can--and this is crazy. We want to just 
simply be able to irrigate park land right along the Missouri 
River, but we have to cross the easement in order to--or the 
Corps land to get to the water where we have a state identified 
water right of that moving through. I'm curious as to the 
thought process behind the--this existing. And, once again, the 
Rule 26 comes into play. Either the Corps is not recognizing a 
state water right law, which has been in existence for 100 
years or better, or we're misunderstanding something. Because 
this is simply access to get to water that most certainly under 
our State's laws, as clearly as identified and recognized in 
the original Flood Control Act of 1943--or we're missing 
something else here. And I'm just wondering if you could shed 
some light just for the folks in the local area about why we're 
having this kind of challenge to cross Corps land to get to the 
water which we have a state water right to obtain?
    Mr. Ponganis. So, Mr. Chairman, again, when this issue came 
up several years ago with--and
    Secretary Darcy was the Assistant Secretary of the Army for 
Civil Works at the time, she did a--she looked at this from a 
national perspective and found out that we were not--we were 
not implementing across the board a consistent program to 
address that particular issue. And that was really the genesis 
for the rulemaking effort. And, as I just mentioned, where the 
comment period has been extended. We recognize the water rights 
of holders. We're not in that business. That's state business. 
But we do have to look at that easement crossing our land. And, 
again, the rulemaking was trying to get to a consistent program 
to address that specific question.
    Senator Rounds. Sometimes one size does not fit all. 
Director Ponganis, you've been very patient with me as I worked 
my way through a series of questions here. I've got just a 
couple of other ones here. And I most certainly appreciate the 
comments that you made. The City of Ft. Pierre, now celebrating 
its 200th birthday this year, they've been impacted by the 
buyout of numerous residential properties by the Army Corps. As 
a result, there is now a checkerboard of dozens of vacant lots 
fully furnished with infrastructure and basically no tax 
revenue.
    Is there a process in place that the Corps has for 
negotiating or returning pieces of property like this to a 
community, to a municipality, to a county? Is there a process 
in place today, or is this something that we need to look at in 
terms of further legislation?
    Mr. Ponganis. So my understanding, Mr. Chairman, is there 
was a specific act that allowed for the Corps to either 
purchase the property from willing sellers or flood proof 
property. Underneath that law when we purchased that land there 
is no provisions for us to resell that. So if there is a desire 
on the part of the City to look at that, that could require 
some assistance from the committee in terms of maybe some 
legislation in a WRRDA bill that would allow for that specific 
transaction to occur.
    Senator Rounds. Very good.Thank you. Is there--I want to go 
back over just the big picture one more time so that we're 
clear and give you the opportunity to clarify anything if I've 
misunderstood what you indicated. The mainstem dams of the 
Missouri River, currently while they may have more water in 
them than what you want in December, that's expected this time 
of the year, you anticipate that with an average flow, an 
average flow of 30,000 cubic foot per second through the 
system, thereabouts, you will be well within or at least you 
will be within the normal operating range as you -as the plan 
calls for along the mainstem dams with those dams by the time 
freeze up comes or at least the first part of December. Is that 
fair to say?
    Mr. Ponganis. Yes, sir.
    Senator Rounds. And, furthermore, that the fluctuations 
that we're seeing here have been a demand for power which has 
been, under your knowledge, following within the guidelines 
that have been laid out in the past for WAPA to be able to 
request power increases or generation increases on demand but 
that there are no further restrictions other than a minimum and 
a maximum, that you believe that they have been adhering to 
with regard to the total amount of water being released from 
the mainstem dams?
    Mr. Ponganis. Yes, sir.
    Senator Rounds. So if there was a need or if there was an 
interest on the part of regulating further the maximum and 
minimums in a time frame for delivery of those, you believe 
that that would have to be something taken up within the 
operating plan, or is there another way or a better way to be 
able to respond to that to eliminate some of the real concerns 
and clear evidences of damage being done along the River today?
    Mr. Ponganis. I think, Mr. Chairman, that would have to be 
looked at from both the operating perspective, operating 
manual, as well as from a perspective of WAPA on meeting load. 
So it's not just looking at the physical changes that you would 
look at from the ability of WAPA to meet a regional load. So it 
would have to be a joint effort, sir.
    Senator Rounds. But based upon the current projections at 
this time, you do not see water releases through anything other 
than the regular hydro plants along any of the mainstem dams on 
the Missouri River?
    Mr. Ponganis. For the remainder of this season.
    Senator Rounds. For the remainder of this season. Okay. 
Very good. Mr. Ponganis, thank you very much for your testimony 
today.
    Mr. Ponganis. Thank you.
    Senator Rounds. At this time we're going to take just a few 
minutes and we'll change around and you'll hear testimony from 
several of our local witnesses as well.(Pause.)
    Senator Rounds. Our witnesses joining us for our second 
panel today are Mayor Steve Harding, Mayor of Pierre, South 
Dakota; Jeanne Goodman, Chief Engineer, South Dakota Water 
Program, Department of the Environment and Natural Resources in 
Pierre, South Dakota; Mr. Paul Lepisto, Regional Conservation 
Coordinator, Izaac Walton League of America. Welcome, and I 
appreciate your taking time to come in and visit with us today. 
I will turn to our first witness, Mayor Harding, for five 
minutes. Mayor Harding, your full statement, full testimony, 
will be included for the record, but you may begin your 
testimony.

STATEMENT OF HON. STEVE HARDING, MAYOR, CITY OF PIERRE, PIERRE, 
                               SD

    Mayor Harding. Thank you, Chairman Rounds, and thank you 
for the invitation to testify this morning. I am Steve Harding, 
Mayor of Pierre. Through my testimony today I hope to add to 
the Subcommittee's understanding of the challenges for Pierre 
and other River communities like Pierre who are facing and 
obtaining federal permits to access Missouri River water. 
Before I get further into my testimony, I do want to thank you, 
Chairman Rounds, for your ongoing leadership to facilitate 
communications between Missouri River communities and the Corps 
of Engineers.
    Thank you for your efforts. As you know, the 2011 Missouri 
River flood devastated the communities of Pierre and Ft. 
Pierre. On the positive side, it's also caused the City of 
Pierre's relationship with the local Corps of Engineer's office 
to grow. We do receive regular updates of snowpack, water 
releases, and river levels. These scheduled updates provided by 
the Corps greatly increase the community's confidence and 
understanding of River management. With that in mind, the City 
of Pierre would highly encourage the Corps of Engineers to 
purchase additional snowpack monitoring equipment to enhance 
reliable flood control information for the Missouri River 
communities like Pierre. As you know, Pierre is nestled along 
the Missouri River, and the River is very much a central part 
of our community. In fact, two miles of our parks system are 
riverfront. We take great pride in showcasing our natural 
resource, and we work hard to keep our riverfront property 
inviting. As you'd expect, keeping the green space along the 
River green does require irrigation.
    Pierre currently has to use treated water to irrigate its 
parks. Pierre's water is supplied by ground waterproduced by a 
series of local wells. All water produced by the wells is 
treated prior to distribution. This treatment comes at an 
expense to the City and ultimately to taxpayers of our 
community. To control these costs the City is working to gain 
access to Missouri River water for irrigation purposes. In 
March of last year we worked with the South Dakota Department 
of Environment and Natural Resources to obtain a water permit 
so we could utilize river water for irrigation. In May of last 
year DENR approved the permit. We subsequently requested an 
easement from the Corps so we could access the water DENR gave 
us permission to use.
    The federal permitting process has proved to be 
challenging, financially burdensome, and somewhat bizarre, 
especially when considering the scope of our requested permit. 
DENR gave us permission to use 1.57 cubic feet per second 
between April 1 and November 30. For perspective, the amount of 
water is less than two-thousandths of a percent. That's .00155 
percent of the water that flows past Pierre annually. After 
making contact with the Corps, it was our understanding that 
submission of the 404 Permit form was the first step in the 
federal process for obtaining an easement. As you might know, 
404 permits are typically required prior to construction 
activities. Although it seemed abnormal to submit a 404 Permit 
at this initial stage of the process, we complied and submitted 
the form. After submission of the 404 Permit form, the City 
received an additional request from the Corps for more 
information. It did not appear to be an official Corps form or 
permitting application.
    It was just typed in a Word document. The City of Pierre 
has obtained a number of 404 permits in the past, and we have 
never been asked for this level of detail to obtain the 404 
Permit. To date the City of Pierre has not been able to fulfill 
the additional request for information. The City would need to 
invest tens of thousands of dollars in engineering studies to 
provide the secondary details requested by the Corps. For 
example, the Corps requested information regarding pump size 
and approach velocity.
    These details require the entire irrigation distribution 
system to be fully engineered. It is difficult for the City 
Commission to justify completing a distribution system design 
when we have no guarantees we'll be provided access to the 
River or have the ability to utilize that distribution system. 
As a small government unit, the unit in Pierre works hard to 
find financial efficiencies. By utilizing river water for 
irrigation, we are looking to lower costs, which ultimately 
benefits our citizens. The City simply wants access to the 
water we have already been granted permission to use. To that 
end, the City's request today is for a consistent, streamlined 
easement process that will allow entities that have been given 
legal rights to utilize Missouri River water to be able to 
access that water. I'd ask that the Corps clearly outline the 
permitting process, with time lines, financial obligations, and 
process flow. Thank you for the opportunity to submit 
testimony. I look forward to working with the Corps to find a 
reasonable solution to the City's current permitting concerns.
    [The prepared statement of Mr. Harding follows:]

   Statement of Hon. Steve Harding, Mayor, City of Pierre, Pierre, SD

    Chairman Rounds, Ranking Member Harris, and Members of the 
Subcommittee, I am Steve Harding, Mayor of Pierre, South 
Dakota. Through my statement today, I hope to add to the 
subcommittee's understanding of the challenges communities are 
facing in navigating the Federal permit process and obtaining 
Federal easements for water access.

    Flood Management
    At the outset, I do want to thank Chairman Rounds for his 
ongoing leadership in helping Missouri River communities 
understand the management of the Missouri River by opening 
lines of communications between the U.S. Army Corps of 
Engineers (USACE) and local government leadership.
    Although the 2011 Missouri River flood was devastating to 
Pierre, it did cause the city of Pierre's relationship with the 
local Corps of Engineers Office to grow immensely. We now 
receive regular updates about snow pack, water releases and 
river levels. These scheduled updates greatly increase our 
comfort level and understanding of river management. I want to 
thank the USACE for its ongoing cooperation and information 
sharing on this matter.
    To that end, it is our understanding that money has been 
appropriated to the USACE for the purchase of additional snow 
pack monitoring equipment. The City supports the purchase to 
further enhance reliable flood control information for Missouri 
River communities.
    I also want to commend the staff of our local Corps of 
Engineers Office. We enjoy a solid relationship with the local 
team and greatly appreciate their cooperation and 
professionalism.

    River Access
    As you know, Pierre is nestled along the Missouri River, 
and the river is very much a central part of our community. In 
fact, two miles of our park system are riverfront.
    The City takes great pride in showcasing the natural 
resource and works hard to keep our riverfront property 
inviting. As you'd expect, keeping the green space along the 
river green does require irrigation.
    Pierre's water is supplied by groundwater produced by a 
series of local wells. All water produced by the wells is 
treated prior to distribution. The City feels it is unnecessary 
to use water treated for drinking purposes to be used for 
irrigation in our parks. Treated water comes at an expense to 
the City and ultimately, the tax payers.
    To control these costs and because of our proximity to the 
Missouri River, the City is working to gain access to Missouri 
River water for irrigation purposes.
    In March of 16, the city of Pierre worked with the South 
Dakota Department of Environment and Natural Resources (SD 
DENR) to obtain a Water Permit which would allow the City to 
utilize river water for irrigating our riverfront park system.
    In May 2016, SD DENR approved the permit. The SD DENR 
determined that there is unappropriated water available for 
irrigation use, that the diversion could be developed without 
impairing existing rights, that the City's intended use of the 
water is beneficial and it was in the public interest.
    Subsequently, the City sought an easement from the USACE to 
access the water we had been given rights to utilize. 
Unfortunately, the Federal permitting process proved to be 
challenging to navigate, and financially burdensome--especially 
when considering the scope of the requested permit. The amount 
of water we would use annually is less than 2 thousandths of a 
percent --that's .00155 percent) of the water that flows past 
Pierre annually.
    After making contact with the USACE with our initial intake 
and irrigation plan, it was our understanding that submission 
of the 404 Permit form was the first step in the USACE process 
for obtaining an easement. As you might know, 404 Permits are 
typically required prior to construction activities. Although 
it seemed abnormal to submit a 404 Permit at this initial stage 
of the process, we complied and submitted the form.
    After submission of the 404 Permit form, the City received 
an additional request from the USACE for more information. This 
secondary request for information did not appear to be on an 
official USACE form or permitting application, nor did we 
previously understand this document to be part of the easement 
permitting process.
    To date, the city of Pierre has not been able to fulfill 
the additional request for information. To fulfill that 
request, the city would need to invest tens of thousands of 
dollars in engineering studies. For example, the USACE 
requested information regarding pump size and approach 
velocities. Those details require the entire irrigation 
distribution system to be fully engineered. It is difficult for 
the City to justify completing a distribution system design 
when we have no guarantees we'll be provided access to the 
river or have the ability utilize that distribution system.
    It is the City's opinion that the request is incongruous 
with the scope of the project, and we do not have a clear 
understanding of the Federal easement permitting process. What 
steps remain in the easement permitting process?
    As a small government unit, the city of Pierre works hard 
to find financial efficiencies. By utilizing river water for 
irrigation, we are looking to lower costs which ultimately 
benefits our citizens. The City simply wants access to the 
water that we have already been granted permission to use.
    To that end, the City's request today is for a consistent 
streamlined easement process that will allow entities that have 
been given legal rights to utilize Missouri River water to be 
able to access that water. We'd ask that the USACE clearly 
outline the permitting process with timelines, financial 
obligations, and process flow. The City understands processes 
are necessary, however, it is our experience that the current 
process is cumbersome, overly burdensome, and financially 
prohibitive. We question why the USACE is making it so 
challenging for the City to provide this cost saving service to 
our community.
    Thank you for the opportunity to submit testimony. I look 
forward to working with the USACE to find a reasonable 
resolution to the City's current permitting concerns.

    Senator Rounds. Thank you, Mayor Harding, for your 
testimony. Our next witness is Ms. Goodman. Ms. Goodman, you 
may begin.

STATEMENT OF JEANNE GOODMAN, CHIEF ENGINEER, SOUTH DAKOTA WATER 
                      PROGRAM, PIERRE, SD

    Ms. Goodman. Thank you. Thank you, Chairman Rounds. My name 
is Jeanne Goodman. I'm the Chief Engineer of the Water Rights 
Program for the South Dakota Department of Environment and 
Natural Resources. Thank you for the opportunity to testify. I 
want to share DENR's perspective of theCorps's management of 
the Missouri River since the 2011 flood event, DENR's efforts 
in managing water use of the Missouri River, and how federal 
and state management of the--efforts of the River need to work 
collaboratively. Following post 2011 Missouri River Flood 
Independent Review Report recommendations, the Corps began 
improving communication systems between other agencies and 
distributions of current conditions, storage forecasts, and 
planned releases with federal, state, and local officials 
during periods of heightened flood risk.
    DENR appreciates the Corps's improved communications, 
especially during spring flows and runoff conditions, through 
monthly conference calls. Updates of basin conditions posted on 
their website have been particularly helpful this year, as 
early mountain snowmelt and late spring runoff impacted Lake 
Oahe levels resulting in variable flows of Lake Sharpe. 
However, the Independent Review Report conditions [sic] for 
studies to enhance data collections, forecasting, and runoff 
from plains snow, which was insufficient in preparing for and 
managing the 2011 flood, have not been implemented. This key 
piece in flood management was authorized by the 2014 Water 
Resources Development Act, or WRRDA, but the Corps needs to 
step up as the lead agency to make this program happen.
    Water laws in South Dakota dates back to statehood and 
declares all waters of the state are property of the people of 
the state. The right to use the water may be acquired by 
appropriation, as provided by law. Water right permits can be 
issued if there is unappropriated water available. The use will 
not unlawfully impair existing rights. The proposed use is 
beneficial and is in the public interest. Meeting these 
criteria, water right permits are issued for the use of the 
natural flows from the Missouri River. Natural flows are 
essentially those waters that would flow in the River, whether 
the--whether or not the mainstem reservoirs existed.
    The Corps, however, does not recognize natural flows or the 
State's jurisdiction over them. Instead they consider all water 
in reservoir as stored water under federal authority. In 2008 
the Corps issued Real Estate Guidance Policy Letter No. 26, a 
policy requiring municipal and industrial water users to 
acquire a water storage contract prior to the Corps issuing an 
access easement to a Missouri River reservoir for a pump site. 
Since the Corps ignores the existence of natural flows and had 
no process for issuing contracts, the effort of the policy was 
to place a moratorium oneasements to Missouri River reservoirs. 
This moratorium hit South Dakota hard because out of the 1,000 
miles of Missouri River shoreline, only about 100 are on two 
short free-flowing stretches in the state. 90 percent of the 
River became off limits to potential users of the Missouri 
River water. How can South Dakotans use Missouri River water? 
How can they put it to beneficial use when access to the River 
is denied? We agree the Corps has certain authorities under the 
1944 Flood Control Act and the 1958 Water Supply Act but 
strongly dispute the Corps's definition of stored water as 
being all water held within the boundaries of the reservoir. A 
proposed rulemaking published in December 2016, which was 
intended to standardize how the Corps will charge for stored 
water and further define stored water versus natural flows, has 
failed to fully recognize states' jurisdictions in the matter. 
As Governor Daugaard commented on the proposed rulemaking, "The 
proposed rule is unacceptable to South Dakota" because the 
Corps "attempts to write into rule the agency's legal authority 
to expand federal storage right claims and control over the 
allocation of all of the
    Missouri River water without regard to state water laws." 
State's rights to natural flows of navigable waters within 
their borders are constitutionally founded and protected in the 
Equal Footing Doctrine. Congress acknowledged this states' 
right in the first sentence of Section 1 of the 1944 Flood 
Control Act by stating, "It is declared to be the policy of the 
Congress to recognize the interests and rights of the states in 
determining the development of the watersheds within their 
borders." As a consequence of the Doctrine and the enacted law, 
the Corps must acknowledge the State's right to natural flows 
for states to effectively manage the Missouri River water. 
Governor Daugaard's complete comment letter on the proposed 
rulemaking has been filed for the record with my testimony. To 
address these issues South Dakota suggests Congress take the 
following actions: Direct the Corps to continue basin updates 
for congressional, state, and local interest and step up as 
lead agency to develop and implement a plains snowpack and 
drought monitoring network as authorized by the 2014 WRRDA. 
Secondly, acknowledge that natural flows through the reservoirs 
exist and remain under the jurisdiction of the states by 
rescinding Real Estate Guidance Policy Letter No. 26 and 
allowing users to access the water for which they have obtained 
state water rights. And, three, reject the current proposed 
rulemaking, Use of Army Corps of Engineers Reservoir Projects 
for Domestic, Municipal, and Industrial Water Supply. I hope 
this information is useful to your Subcommittee, Mr. Chair. 
Thank you.
    [The prepared statement of Ms. Goodman follows:]

Statement of Jeanne Goodman, Chief Engineer, South Dakota Water Program 
                               Pierre, SD

    Chairman Rounds, Ranking Member Harris, and Members of the 
Committee, my name is Jeanne Goodman, Chief Engineer of the 
Water Rights Program, South Dakota Department of Environment 
and Natural Resources (DENR). Thank you for the opportunity to 
testify. I want to share DENR's perspective of the Corps' 
management of the Missouri River since the 2011 flood event, 
DENR's efforts in managing water use of the Missouri River, and 
how Federal and State management efforts need to work 
collaboratively.
    Following the post 2011 Missouri River Flood Independent 
Review Report recommendations, the Corps began improving 
communication systems between other agency forecasts and 
distribution of current conditions, storage forecasts, and 
planned releases with Federal, state, and local officials 
during periods of heightened flood risk. DENR appreciates the 
Corps improved communication especially during spring flows and 
runoff conditions through monthly conference calls. Updates of 
basin conditions posted on their website have been particularly 
helpful this year as early mountain snowmelt and late spring 
runoff impacted Lake Oahe levels resulting in variable flows in 
Lake Sharpe.
    However, the Independent Review Report recommendations for 
studies to enhance data collection, forecasting, and runoff 
from plains snow, which was insufficient in preparing for and 
managing the 2011 flood, has not been implemented. This key 
piece in flood management was authorized by the 2014 Water 
Resources Development Act, but the Corps needs to step up as 
lead agency to make this program happen.
    Water Rights law in South Dakota dates back to statehood 
and declares all waters within the State as the property of the 
people of the state. The right to use the water may be acquired 
by appropriation as provided by law. Water right permits can be 
issued if there is unappropriated water available, the use will 
not unlawfully impair existing rights, the proposed use is 
beneficial, and is in the public interest. Meeting these 
criteria, water right permits are issued for use of the natural 
flows from the Missouri River. Natural flows are those waters 
that would flow in the river whether or not the main stem 
reservoirs existed.
    The Corps, however, does not recognize natural flows or the 
state's jurisdiction over them. Instead they consider all water 
in a reservoir as stored water under Federal authority. In 2008 
the Corps issued Real EState Guidance Policy Letter No. 26, a 
policy requiring municipal and industrial water users to 
acquire a water storage contract prior to the Corps issuing an 
access easement to a Missouri River reservoir for a pump site. 
Since the Corps ignores the existence of natural flows and had 
no process for issuing contracts, the effect of the policy was 
to place a moratorium on easements to Missouri River 
reservoirs. This moratorium hit South Dakota hard, because out 
of a thousand miles of Missouri River shoreline, only about one 
hundred are on two short free-flowing stretches in the state. 
Ninety percent of the river became off limits to potential 
users of Missouri River water.
    How can South Dakotans put Missouri River water to 
beneficial use when access to the water is denied? We agree the 
Corps has certain authorities under the 1944 Flood Control Act 
and 1958 Water Supply Act but strongly dispute the Corps' 
definition of stored water as being all the water held in 
reservoirs. A proposed rulemaking published December 2016, 
intended to standardize how the Corps will charge for stored 
water and further define stored water versus natural flows, 
failed to fully recognize states' jurisdiction in the matter.
    As Governor Daugaard commented on the proposed rulemaking, 
``the proposed rule is unacceptable to South Dakota'' because 
the Corps ``attempts to write into rule the agency's legal 
authority to expand Federal storage right claims and control 
over the allocation of all of the Missouri River water without 
regard to State water laws'..'' States' rights to natural flows 
of navigable waters within their borders are constitutionally 
founded, and protected, in the Equal Footing Doctrine. Congress 
acknowledged this states' right in the first sentence of 
Section 1 of the 1944 Flood Control Act by stating ``it is 
declared to be the policy of the Congress to recognize the 
interests and rights of the States in determining the 
development of the watersheds within their borders and likewise 
their interests and rights in water utilization and control' As 
a consequence of the doctrine and the enacted law, the Corps 
must acknowledge the state's right to natural flows for states 
to effectively manage Missouri River water. (Governor 
Daugaard's complete comment letter the ``Use of Army Corps of 
Engineers Reservoir Projects for Domestic, Municipal & 
Industrial Water Supply'' proposed rulemaking is attached.)
    To address these issues, South Dakota suggests Congress 
take the following actions:
    1. Direct the Corps to follow through on the 2011 Missouri 
River Flood Independent Review Report by continuing basin 
updates for congressional, state, and local interests and step 
up as lead agency to develop and implement a plains snowpack 
and drought monitoring network authorized by the 2014 WRDA.
    2. Acknowledge that natural flows through the reservoirs 
exist and remain under the jurisdiction of the states by 
rescinding Real EState Guidance Policy Letter No. 26 and 
allowing users to access the water for which they have obtained 
State water rights.
    3. Reject the current proposed rulemaking ``Use of Army 
Corps of Engineers Reservoir Projects for Domestic, Municipal & 
Industrial Water Supply''.
    I hope this information is useful to the Subcommittee. 
Thank you.

    Senator Rounds. Thank you for your testimony, Ms. Goodman. 
We'll now hear from our next witness, Mr. Paul Lepisto. Mr. 
Lepisto, you may begin.

 STATEMENT OF PAUL LEPISTO, REGIONAL CONSERVATION COORDINATOR, 
           IZAAK WALTON LEAGUE OF AMERICA, PIERRE, SD

    Mr. Lepisto. Thank you, Mr. Chairman. The Izaac Walton 
League of America appreciates the opportunity to testify here 
today. Our written testimony provides much greater detail, but 
we would like to address several topics this morning. We 
believe the Missouri River is one of the most altered 
ecosystems on earth. The '44 Flood Control Act created eight 
authorized purposes that are in direct conflict. 35 percent of 
the River is impounded by reservoirs, and 33 percent is 
artificially channelized by the Bank Stabilization and 
Navigation Project. Creation of the dams in the BSNP resulted 
in millions of acres of the River's aquatic and terrestrial 
habitat being destroyed. That habitat historically made the 
Missouri River one of the richest ecosystems on earth. While 
habitat restoration is ongoing, we believe much more must be 
done. Restoration will provide critical habitat for over 85 
native fish species and over 140 bird species along the River. 
We recognize the paradox the Corps faces every year. Flood 
control requires removing water from the reservoirs while the 
other purposes require storing water.
    Also only 53 percent of the basin is regulated by the 
mainstem reservoirs, leaving areas of the lower basin subject 
to flooding regardless of Corps's action. We urge better 
communication by the Corps with this--with the public on this 
topic. We also encourage the Corps to rethink rather than just 
rebuild structures that repeatedly fail. More levy setbacks and 
river widening projects should be used. This would give the 
River more room to roam, provide flood risk reduction, and 
reestablish floodplain conductivity. The incredible dynamics of 
the basin are evident again this year as has been touched on 
this morning. Areas are experiencing sever to exceptional 
drought while dam releases are high. We believe there's an 
urgent needfor a much more flexible management approach, and we 
would support updating the master manual to allow additional 
in-season release adjustments that more closely match that 
year's actual runoff. We believe the federally listed species 
are poster children for our largely unhealthy river. Restoring 
habitat will benefit the listed species and the fish species 
that are now listed as rare or declining. We urge action that 
in selected areas would allow the River to restore its own 
habitat for self-sustaining fish and wildlife populations. This 
will recover the River, reduce flood risk, and improve water 
quality, while increasing recreational opportunities. We call 
on the Corps to continue the BSNP Mitigation Program and 
strongly urge them to seek the funding to get the BSNP 
Mitigation Program back on track. The recreation industry on 
the Missouri River is a major economic engine that supports 
local, regional, and national businesses. Its economic impact 
exceeds by more than 10 times the Flood Control Act's original 
expectations for it.
    Recreation produces and sustains thousands of year-round 
jobs in and out of the basin, yet we're concerned about the 
health of the fisheries on the reservoirs. Stable or rising 
springtime levels, especially at Fort Peck, Sakakawea, and 
Oahe, are essential for fish recruitment. We do support the 
Corps's unbalanced management approach in their attempts to 
raise water levels in at least one of the reservoirs each 
spring. The League commends the Corps for improved engagement 
with other agencies for the monitoring of snowpack, soil 
moisture, and frost depth every year. However, we too are 
disappointed the Corps has not yet requested the funding for 
gauges that accurately measure runoff and snow water 
equivalent. We urge the Corps to incorporate climate change and 
its impact in their future runoff scenarios and in their annual 
operating plan development process. In most years the amount of 
water in the Missouri River Basin is limited, especially from 
the upper semi-arid basin. We support the Corps meeting 
navigation flows if and only if commercial navigation is 
actually on the lower river. This should be enacted every year 
that runoff is at or below average. We obviously acknowledge 
the importance of getting the reservoirs out of the exclusive 
flood control zone, but we would ask for water conservation 
measures every year once that goal is reached. We also urge the 
Corps to work with other agencies to lessen sediment in the 
reservoirs by encouraging conservation methods that reduce 
erosion, and we would support exploring ways to decrease and/or 
transport sediment from the reservoirs. The League believes the 
Missouri River benefits everyone if it's healthy, and if it's 
managed for multiple uses, the River will create even more 
jobs, revenue, and recreational opportunities for families in 
the basin and all across the nation. And, with that, I thank 
you for your time and consideration.
    [The prepared statement of Mr. Lepisto follows:]

  Statement of Paul Lepisto, Regional Conservation Coordinator, Izaak 
                  Walton Leage of America, Pierre, SD

    The Izaak Walton League of America (League) appreciates the 
opportunity to provide written testimony on the topic: 
``Oversight of the Army Corps' Management of the Missouri 
River.'' The League was founded in 1922, and has over 42,000 
members and nearly 230 chapters around the country. Many of the 
League's members are avid recreationists that fish, hunt, and 
truly enjoy living in the Missouri River basin. The river plays 
a major role in many of our members' daily lives. The League 
looks to collaborate with all interests in the basin to find 
common sense, science-based solutions that work with the river 
rather than against it. The Missouri River basin encompasses 
land covering one-sixth of the continental United States. The 
Missouri, America's longest river, is one of the most altered 
ecosystems on earth. Many of the alterations followed passage 
of the 1944 Flood Control Act (FCA), which created eight 
authorized purposes: flood control, hydropower, recreation, 
fish and wildlife, irrigation, water supply, water quality, and 
navigation. These purposes--by their individual water needs--
have been, and continue to be, in direct conflict with each 
other.
    The Missouri River is far different than the ``Big Muddy'' 
explored by Lewis and Clark. Today, 35 percent of the river is 
impounded by six massive main stem reservoirs and 33 percent is 
artificially channelized in the 735 mile Bank Stabilization and 
Navigation Project (BSNP) from Sioux City, Iowa to St. Louis, 
Missouri. With creation of the dams and the BSNP, millions of 
acres of the river's historic aquatic and terrestrial habitat 
have been lost or destroyed. This includes much of the riverine 
forest and shrub land vegetation, nearly all of the sandbars 
and islands, and the majority of the river's shallow and slow 
water habitat. The alternations were so significant the river 
is now 120 miles shorter between Sioux City and St. Louis. 
While some habitat recovery and restoration efforts are 
ongoing, the League believes much more must be done. League 
members, especially those living in Iowa, Nebraska, and South 
Dakota, want to see the recovery efforts continue and expand. 
The League believes many more areas along the river are in need 
of restoration and conservation efforts due to the high-quality 
recreational, natural, scenic, and historical resources they 
contain. With additional restoration, areas of the river could 
again provide critical habitat for over 85 native fish species, 
including the endangered pallid sturgeon, and more than 140 
year-round and migratory bird species, including the bald eagle 
and the federally listed least tern and piping plover. The 
river's man-made alterations destroyed most of the braided side 
channels, chutes, wetlands, islands, sandbars, backwaters, 
natural floodplain, and upland forest areas that historically 
made the Missouri River one of the richest ecosystems on earth.

    We appreciate your consideration of the following topics 
concerning current and future Missouri River management issues:
    1) The Corps' Overall Management
    2) Suggestions for Future Management
    3) The Missouri River Recovery Program (MRRP)
    4) The Need for Improved Stream Gauges to Aid in Runoff 
Forecasting
    5) Recreation
    6) Navigation
    7) River Bed Degradation
    8) Sedimentation
    9) Aquatic Invasive Species

    Overall Management
    The League realizes the tremendous paradox the Army Corps 
of Engineers faces each year related to water management on the 
Missouri River. Flood control is the only one of the eight 
authorized purposes that requires removing water from the 
reservoir system. The other seven authorized purposes all 
require storing water in the reservoir system. Another complex 
management issue for the Corps is that only 53 percent of the 
Missouri River Basin is regulated by the six mainstem 
reservoirs. That leaves roughly half the basin largely 
unregulated and subject to regular flooding, regardless of what 
is proposed in the Corps' Annual Operating Plan (AOP) or any 
other management action. The League urges the Corps to increase 
communication with the public about this fact to help educate 
people that it doesn't, and can't, control the runoff in the 
entire basin. Despite the agency's best efforts, periodic 
flooding will occur along stretches of the lower river.
    Future Management
    The League continues to encourage the Corps to always look 
outside the box and ``re-think'' rather than just ``re-build'' 
man-made flood control structures that repeatedly fail. We 
believe it's time to look at non-structural alternatives to 
levees. We wholeheartedly support increasing levee setbacks and 
completing additional river widening projects, like the Deer 
Island Project north of Omaha-Council Bluffs that gives the 
Missouri River more room to roam. This will provide additional 
flood risk reduction to the lower basin and reduce the stage of 
the river during high flow periods.
    The Missouri River Master Manual calls for a 3,000 foot 
floodplain from Sioux City to Kansas City and a 5,000 foot 
floodplain from Kansas City to the mouth near St. Louis. The 
League has repeatedly urged the Corps to work with local 
governments on new zoning ordinances to implement this wider 
floodplain. This action would continually save taxpayer dollars 
and produce a healthier river by reestablishing needed 
floodplain connectivity.
    A reconnected floodplain will naturally produce and provide 
needed habitat for fish and wildlife thereby aiding recovery of 
threatened and endangered species. The naturally created 
habitat will also provide increased recreational opportunities 
for families in the basin. That boost from the recreation 
industry will have a positive economic impact and create many 
more year-round jobs.
    The incredible dynamics of the Missouri River Basin have 
been evident again this year. Many areas of the upper basin 
experienced severe to extreme and even exceptional drought 
conditions this spring and early summer. At the same time, 
flows out of the dams were at very high levels due to the Corps 
releasing water from high mountain snowpack. This huge 
hydrological swing demonstrates how quickly basin conditions 
change. The League believes these dramatic swings demonstrate 
the urgent need for a much more flexible approach to the day-
to-day management of the Missouri River.
    We firmly believe the Corps' management policies must be 
much more adaptable to the actual basin hydrologic conditions. 
We support changing and updating the Missouri River Master 
Manual so it would allow additional in-season adjustments to 
water releases. This would enable the Manual to accurately 
match the actual high or low runoff as each year unfolds. 
Critically important water management decisions, that 
ultimately impact all the residents of the basin, should not 
follow a ``locked in stone policy'' set months before the 
actual runoff conditions are realized.
    Millions of people in the basin depend on the Missouri 
River and its resources for their livelihood and as an 
important component to their quality of life. That human 
demand, and the overall health of the river itself, require a 
much more modern, adaptable approach to water management than 
the current Master Manual policies permit.
    The current Master Manual review of water in storage in the 
reservoir system to determine navigation support and season 
length does not adequately address the needs of residents in 
the basin. Basin conditions can, and do, change rapidly. 
Additional timely reviews throughout the spring and summer 
months are urgently needed to accurately determine the proper 
amount of releases from the reservoir system every year.
    The League would also enthusiastically support a 
comprehensive review of the eight Missouri River Authorized 
Purposes in the FCA. We believe the eight purposes need to be 
thoroughly reviewed in terms of what is best for the American 
taxpayer as well as the needs of all the people in the entire 
Missouri River basin. This review should incorporate today's 
economic values and priorities, instead of being limited to 
those included in the FCA.
    The Missouri River is still operating on a 70 year old 
business plan. This review of the eight authorized purposes is 
urgently needed and long overdue for the American taxpayer and 
for the river itself. The Missouri River basin is very 
different today compared to what was envisioned when the FCA 
was passed. Some of the authorized purposes meet or greatly 
surpass original expectations. For example, recreation today 
exceeds original FCA estimates by more than 10 times.
    Other purposes, however, have fallen well short of original 
expectations. Commercial navigation is less than one-tenth what 
the FCA estimated it would be, yet the Corps' water management 
continues to favor navigation despite little or no barge 
traffic on the lower river. This dramatically demonstrates why 
this review needs to fully funded, completed, and 
recommendations from it sent to Congress to make long over-due 
changes in the FCA.
    A comprehensive review of the authorized purposes would be 
a prudent investment, one that would produce savings for the 
taxpayer in the future. A review and any subsequent changes 
would streamline future Corps operational expenses and it would 
finally bring Missouri River management into the 21st century.

    The Missouri River Recovery Program (MRRP)
    The League supports the Corps' efforts in the Missouri 
River Recovery Program (MRRP). We believe the three federally 
listed species--the pallid sturgeon, least tern, and piping 
plover--are ``poster children'' for what is mostly an unhealthy 
river. Restoring a portion of the millions of acres of lost 
riverine habitat will not only benefit the listed species, but 
also help the 51 of 67 native fish species now listed as rare 
or declining on the river.
    The Corps worked hard to develop the new Missouri River 
Recovery Management Plan (MRRMP). The plan's Draft 
Environmental Impact State (DEIS) was released in December. The 
plan included six proposed alternatives for Missouri River 
recovery. This Federal action will include activities designed 
to recover the Missouri River species protected under the 
Federal Endangered Species Act (ESA) and will be conducted 
pursuant to the 1958 Fish and Wildlife Coordination Act and the 
Water Resources Development Act (WRDA) of 1986, 1999, and 2007.
    This authority includes Section 3176 of WRDA 2007 that 
expanded the Corps' authority for recovery and mitigation 
activities in the upper basin states of Montana, Nebraska, 
North Dakota, and South Dakota. All these authorities have been 
combined into the MRRP.
    In our comments on the MRRMP-DEIS the League shared our 
concerns on the Corps' preferred alternative, Alternative 3. We 
feel this alternative relies too heavily on mechanically 
constructed habitat and is too dependent on receiving future 
Federal funding. We believe this leaves needed habitat recovery 
extremely vulnerable to future Federal budget cuts which would 
make species and river recovery highly unlikely.
    We would like to see the Corps incorporate additional 
recovery options that, in selected areas, lets the river do 
some of the work and recover fish and wildlife habitat on its 
own. The League also believes the Corps should strive to change 
the status quo on the Missouri River. We strongly urge the 
development of recovery alternatives that will ensure the long-
term survival and recovery of a self-sustaining population of 
the listed and other native species. We believe this would 
greatly improve the overall health of the river, reduce flood 
risk, and increase water quality and recreational 
opportunities.
    The League supports the efforts of the Missouri River 
Recovery Implementation Committee (MRRIC). The committee was 
authorized in section 5018 of WRDA 2007. The League was an 
original member of the MRRIC and continues to have a high level 
of involvement with the committee. The MRRIC is made up of 
representatives from a wide variety of basin stakeholder 
interests as well as state, tribal, and Federal 
representatives. MRRIC provides guidance to the Corps and the 
U.S. Fish and Wildlife Service (FWS) on current and future 
actions of the MRRP for the listed species on the river. 
Through the MRRIC, the Corps is now working collaboratively 
with tribes, Federal and State agencies, and other stakeholders 
throughout the Missouri River basin.
    The League believes a thorough analysis of all the recovery 
actions through the adaptive management plan will ensure that 
all future management decisions and actions are continuously 
improved. Updating and incorporating what is learned through 
regular and comprehensive scientific monitoring of the river 
will provide benefits to the listed species and lead to the 
recovery of portions of the habitat lost and/or destroyed along 
the Missouri River.
    Much of the MRRP efforts have occurred within the area of 
the BSNP. This is to mitigate for the destruction of over 
522,000 acres of aquatic and terrestrial habitat between Sioux 
City and St. Louis. The League encourages the Corps to continue 
implementing recovery efforts in this area and to strive to 
reconnect portions of the lower river with its historic flood 
plain.
    The League also urges the Corps to consider other areas 
along the river, as authorized in Section 3176 of WRDA 2007, 
for recovery efforts. We feel this will improve recovery 
opportunities for the listed and other imperiled species by 
putting recovery projects across a much wider geographic area. 
This will increase public support of the MRRP by having 
projects on the ground in multiple states.
    The loss of wetlands along the Missouri River has impacted 
the historic migration corridor for waterfowl and other bird 
species. The League supports restoring the wetland habitat 
needed to attract and maintain historic migrating waterfowl 
populations, providing hunting and birdwatching opportunities 
that will provide significant economic benefits throughout the 
region.
    The wetland loss along the river has also contributed to 
increased water quality problems. This adds to water treatment 
costs and further complicates species recovery. League members, 
especially those in Iowa, Nebraska, and South Dakota, want the 
river's natural attributes, including wetlands, backwaters, 
side channels, chutes, and islands, to return to portions of 
the lower river. These areas are capable of producing both 
long-term ecological and economic benefits.
    The League supports the Corps' efforts to restore some of 
the natural features and dynamics of the Missouri River.
    We encourage the Corps to continue the BSNP mitigation 
program and acquire land from willing sellers to develop 
additional shallow water and terrestrial habitat. The League 
supports projects that restore SWH. However, to achieve full 
recovery potential, the revetments that have been placed across 
the openings of previously constructed side chutes need to be 
opened. This will allow the chutes to function as they were 
designed. Re-opening chutes that have either been closed or 
silted in will provide some sorely needed SWH for many native 
fish and wildlife species along the lower river. The 
restoration efforts will have positive impacts on all fish and 
wildlife throughout the region.
    Studies conducted by the FWS and other agencies show that 
over twice as many fish species are utilizing the created SWH 
areas than use the navigation channel. A Corps' study also 
shows that the emergent sandbar habitat (ESH) projects have had 
tremendous response from nesting terns and plovers. These 
habitat restoration projects are working with the river--not 
against it.
    The recovery projects have also been a boon for the river. 
Anglers, hunters, boaters, birdwatchers, and others have been 
using these areas proving the old adage ``if you build it, they 
will come.'' The Missouri Department of Conservation and the 
Nebraska Game and Parks Commission concluded in a recent study 
that recreational spending provides $68 million in annual 
economic impact to areas along the Missouri River between 
Yankton, SD and St. Louis, MO. With additional habitat recovery 
projects, even more people will come to spend time on or along 
the river.
    In addition to the economic boost from outdoor recreation, 
restoration projects provide broader economic benefits 
throughout the entire region. These projects involve restoring 
and creating habitat for terns, plovers, and pallid sturgeon in 
the basin. To perform this work, the Corps contracts with local 
construction companies. This creates or maintains jobs that 
inject money into local economies through purchases of 
materials, fuel, food, and lodging. With robust annual funding 
for the MRRP, the Corps could readily implement more of these 
important economic and ecological restoration projects.
    To successfully complete necessary recovery plans, the 
League supports fee title acquisition of land from willing 
landowners. We believe fee-title acquisition should be used 
when major restoration work is needed to improve the ecological 
function of the river or when public access is anticipated or 
desired. We urge Congress to appropriate the needed funds for 
the Corps to get back on track with the BSNP habitat mitigation 
effort outlined in previous WDRAs and other legislation for 
areas in the lower basin.
    We also want to see more recreational and educational 
opportunities in the new recovery management plan. Recreation 
should be compatible with wildlife but could include canoeing, 
kayaking, boating, fishing, hunting, and hiking trails. This 
will encourage use by schools, scouts, groups, and families 
that want to learn more about the nation's longest river.
    The League also favors of the Corps working on restoration 
projects in cooperation with State agencies, including the Iowa 
Department of Natural Resources, the Nebraska Game and Parks 
Commission, and the South Dakota Department of Game, Fish and 
Parks. The Corps should also look for additional support 
through other partnerships and volunteers.
    The League also requests the Corps address the following in 
future recovery efforts: Water Quality--Is water quality in the 
Missouri River or from any of its tributaries a contributing 
factor to low reproduction of the endangered pallid sturgeon or 
for the 51 of 67 native fish species now listed as rare or 
declining along the Missouri River?

    Water Supply--Can recovery actions be developed that more 
closely mimic the historic flows of the Missouri River, flows 
that are beneficial to native fish and wildlife species 
including the listed species?
    Genetic Diversity--Can recovery actions be developed that 
will preserve and protect the genetic diversity of the upper 
basin population of pallid sturgeon?
    Recreational Access--Can recovery actions be developed that 
also connect more of the river to its flood plain and connect 
more people to the river? The public needs many more areas 
where they can access the river to hunt, fish, birdwatch and 
just enjoy the river with family or friends. When you get 
people on or near the river, they will be much more likely to 
support the activities that improve the health of the river.

    Stream Gauges--Runoff Forecasting
    The League commends the Corps for engaging with the 
National Oceanic Atmospheric Administration, the National 
Weather Service, the Natural Resource Conservation Service, and 
other Federal, State and local agencies to increase monitoring 
of plains and mountain snowpack water content, soil moisture, 
and frost depth to more accurately determine the actual annual 
runoff.
    However, we are disappointed that the Corps has still not 
asked Congress to provide robust investment in modern stream 
gauges to accurately monitor flows in the Missouri River's 
tributaries and the snow water equivalent in the upper basin. 
This enhanced monitoring would enable the best data possible 
for forecasting annual runoff across the basin. We also 
encourage the Corps and other agencies to incorporate data 
dealing with climate change and its impacts, both wet and dry, 
when completing future runoff scenarios and developing the 
Annual Operating Plan.
    To improve annual water management within the basin, the 
League encourages the Corps to utilize every tool available. 
Tools that consider hydrological and economic factors such as 
water supply, collection, storage and diversion, withdrawal, 
consumption, and water requirements in the river basin. We 
believe the Corps needs to implement medium and long-term water 
management planning in order to avoid potential conflicts over 
water management for the basin.

    Recreation
    The South Dakota Department of Game, Fish, and Parks has 
conducted studies that show the annual economic benefits from 
recreation on the Missouri River in the Dakotas and Montana are 
greater than $100 million. That huge economic impact exceeds by 
more than ten times the 1944 Flood Control Act's original 
expectations for recreation.
    The recreation industry on the Missouri River is a major 
economic engine, one critical for local, regional, and national 
businesses. With that positive impact and for quality of life 
issues, League members remain concerned about the overall 
health of the fisheries in the system's reservoirs. Our members 
have particular concerns about the fisheries in the big three 
reservoirs: Fort Peck Lake in Montana, Lake Sakakawea in North 
Dakota, and Lake Oahe in North and South Dakota. The record 
high releases in 2011 flushed a tremendous amount of forage 
fish, chiefly rainbow smelt, out of Lake Oahe. Stable or rising 
reservoir levels in the big three reservoirs are essential in 
the spring and in the early summer. These are needed to 
facilitate recruitment of forage fish populations.
    The League supports the Corps' current management approach 
for the big three reservoirs in which it attempts to raise 
water levels in at least one of these reservoirs each spring. 
Given the economic importance of the recreation industry and 
how dependent that industry is on a healthy fishery, we 
encourage the Corps, when possible, to raise or at least hold 
reservoir levels steady each spring in all of the big three 
reservoirs.
    The Missouri River reservoirs provides world-class 
recreational opportunities for residents and hundreds of 
thousands of visitors each year. Those opportunities generate 
abundant income for businesses across the Nation. The 
recreation industry produces and sustains thousands of 
yearround jobs for people in and out of the basin.

    Navigation
    The League believes water is the most fragile natural 
resource in the Missouri River basin. In most years, water is 
in very short supply, especially in the semi-arid upper basin. 
In years of average or, even more importantly, below average 
basin runoff, the League supports the Corps meeting navigation 
flow targets with reservoir releases if and only if commercial 
navigation traffic is actually going to be on that reach of the 
Missouri River.
    Navigation is the single largest consumer of Missouri River 
water annually. However, navigation continues to fall 
dramatically short of its yearly shipping tonnage expectations. 
According to the General Accountability Office (GAO), the vast 
majority of the Missouri River navigation traffic, mostly 
comprised of sand and gravel, travels less than 10 miles. The 
League believes a tremendous economic and ecological burden is 
placed on the rest of the basin to supply valuable water to 
move sand and gravel only a few miles on the lower river.
    We also believe this water conservation policy should be 
made effective not just when portions of the basin are in 
severe drought, but every year that runoff is expected to be at 
or below the long-term average. Adopting this policy would save 
the basin millions of acre feet of water. Once water is 
released from the reservoir system, it's gone from the system 
forever. During previous prolonged droughts, upper basin states 
have spent millions of dollars ``chasing water.'' Examples 
include having to extend or relocate boat ramps and water 
intakes in the reservoir system to maintain access critical for 
the recreation industry and for irrigation and domestic water 
systems.
    The League acknowledges and agrees with the importance of 
getting the reservoir system out of the Exclusive Flood Control 
Zone each year, but we ask that the Corps begin to implement 
conservation measures each year once that goal is met.

    Riverbed Degradation
    The League supports efforts to address riverbed 
degradation, or down cutting, of the Missouri River. Riverbed 
degradation is having substantial negative impact on public and 
private infrastructure, fish and wildlife habitat, and 
recreational opportunities. Riverbed degradation has also led 
to a drop in groundwater elevations along areas of the lower 
river, which is impacting water wells and the functionality of 
nearby wetlands. The League believes the BSNP needs to be 
thoroughly evaluated. The BSNP is maintained by a series of 
wing dikes and revetments, which have created a ``self-
scouring'' channel. The League and many others believe the BSNP 
is actually over-engineered and is a major contributor to bed 
degradation. We would like this issue closely examined to see 
what would happen if some of the BSNP structures were removed. 
We believe that would allow the river to start to heal itself.
    We also encourage the Corps to consider what impact 
commercial sand dredging in the Kansas City area is having on 
the riverbed in that reach. Is that activity having an impact 
on the bridges, utility crossings, water intakes, and other 
infrastructure? Also what is the impact of that activity on 
native fish and wildlife habitat?
    The League is very concerned about how riverbed degradation 
is impacting the Missouri's tributaries. The beds of many 
tributaries are also dropping as they seek to match the same 
elevation as the decreasing Missouri River bed. How is this 
impacting the health of the tributaries and what impact is this 
tributary bed degradation having on the other authorized 
purposes and overall health of the Missouri River? The cost to 
maintain infrastructure along the Missouri River in areas with 
severe bed degradation will only continue to increase if these 
problems are not corrected.

    Sedimentation
    The League also has serious concerns about the amount of 
sediment accumulating in the six main stem reservoirs. We urge 
the Corps to work with State and Federal agencies to reduce the 
sediment coming into the reservoirs by encouraging landowners 
to utilize conservation methods that reduce soil erosion. We 
also support efforts by the Corps to explore options to reduce 
and transport the previously accumulated sediment within the 
upper ends of the reservoirs. The accumulated sediment 
decreases reservoir storage capacity, negatively impacting 
flood control and decreasing hydropower capabilities. The 
excess sediment in the reservoirs also has tremendous negative 
impacts on forage and game fish spawning success and, at times, 
boating access. We encourage the Corps to find a cost-effective 
method to transport the excess sediment downstream to the 
sediment-starved lower Missouri River and beyond to the Gulf of 
Mexico as it historically traveled.

    Invasive Species
    The League requests the Corps take the steps necessary to 
control the spread of invasive plant and animal species in and 
along the Missouri River. Invasive species are crowding out 
native species and are hurting the overall health of the river. 
The League strongly encourages the Corps to work 
collaboratively with the State agencies to develop a long range 
plan that utilizes aggressive control measures to contain 
invasive plant and animal species. Asian carp and zebra mussels 
are two primary species of concern. Steps must be implemented 
to keep these species and all other invasives from being moved 
to other waters. For the future viability of the Missouri 
River, we must do everything possible to stop the spread of 
invasive species now.

    Summary
    The members of the Izaak Walton League of America believe 
the Missouri River is a national treasure. It's one of the 
nation's most unique rivers, well worth protecting and 
enhancing for this and future generations. The League believes 
a healthy Missouri River provides benefits to throughout the 
basin and beyond. The Missouri is an incredible economic engine 
that, if managed correctly and for multiple uses, would create 
even more jobs and tax revenue for local and State governments, 
and additional recreational opportunities for families not just 
along the river, but across the Nation.
    Thank you for your time and consideration.

    Senator Rounds. Thank you for your testimony, Mr. Lepisto. 
I'll now follow up with some questions for each of you. I'd 
like to begin with Mayor Harding. Mayor Harding, in your 
testimony you described the federal water permitting process as 
"challenging to navigate." I also understand that it has proven 
to be financially burdensome. Do you have suggestions as to how 
this permitting process can be made easier for communities such 
as Pierre?
    Mayor Harding. Mr. Chairman, I would turn to the city 
engineer that has been really involved in that entire process, 
if that would be possible.
    Senator Rounds. You know, let me just have youtake it for 
the record, and if you could come back and offer some 
suggestions, we would certainly appreciate that.
    Mayor Harding. Absolutely. Be happy to. Yes.
    Senator Rounds. Great. Thank you. I was struck by--Mr. 
Mayor, I was struck by the relatively low volume of water 
needed for irrigation that you described in your testimony. You 
cite two-thousandths of a percent or basically one and a half 
cubic foot per second as the amount which has been authorized 
by the State of South Dakota. How did the City of Pierre 
determine that figure, and why do you think the small amount of 
water is so problematic for the Corps? Once again, we're 
talking about one and a half cubic foot per second where the 
average flow that we're talking about right now through is 
33,000 cubic foot per second. Share with me a little bit, why 
do you think that's so problematic? What's the feedback that 
you've received?
    Mayor Harding. Thank you, Mr. Chairman. We're only asking 
to irrigate the green space in our parks along the River. So 
that--and only between those dates. I believe it was April 
through November. So it wasn't even for a year at a time.The 
amount of--with the natural rainfall and what we would use out 
of the River, that's how we determined that, that--and the 
amount of grass that we would irrigate.
    Senator Rounds. It wasn't a large amount.
    Mayor Harding. No.
    Senator Rounds. Okay. Thank you, Mr. Mayor. Ms. Goodman, in 
your testimony you discuss how the moratorium on the easements 
to the Missouri River reservoirs resulted in 90 percent of the 
River becoming off limits to South Dakotans. Can you explain 
the impact this has had on the State and, in particular, what 
impact this has had on the economy in South Dakota?
    Ms. Goodman. Thank you, Chairman Rounds. To indicate or to 
give a couple examples of some of the impacts, because we've 
had some operations that have not been able to access the water 
in the reservoir, they have had to look at other options. An 
example would be a construction project near the town of 
Oacoma. They were working on a road project within probably 10 
to 15 yards of the Missouri River -or the lake at that point. 
They wanted to pump water to use for dust control and other 
things associated with the construction project. They were not 
able to access orget an access easement to that water for the 
project so they had to haul in water. That was one example. A 
very small example. It would impact anyone--for example, the 
City of Pierre is not able to look at a cost saving measure for 
irrigating their green space, as we've heard and as Mayor 
Harding has talked about. Those are just two small examples 
that we've had issues with when we issue a water right from the 
State of South Dakota that they also need to then get access to 
the River and are not able to do that. What the economic impact 
is, Senator, I don't have a number to put to that, but those 
two small examples are probably an indication of the types of 
dollars that we could be talking about.
    Senator Rounds. Thank you. Also in your testimony, Ms. 
Goodman, you discussed the improvements in communication that 
have been made between the Corps and stakeholders throughout 
the flood season, this last flood season. Are there any other 
areas that can be improved in terms of communication regarding 
snowpack levels between the Corps and local stakeholders?
    Ms. Goodman. Thank you, Senator Rounds. As I indicated, we 
are very appreciative of theincreased communication, especially 
during the flood season or potential flood season. That has 
been very helpful. The improvements to the website and the 
information available on the website is very helpful and very 
useful to us as we look through the spring season and what we 
can anticipate through spring flows. As I indicated, increased 
information on plains snowpack, any drought monitoring, could 
certainly--or is certainly needed, and we support that. That 
being done by a federal agency and being available via internet 
and website access to the rest of us would be very, very 
helpful as we also look at our water use and management of the 
Missouri River.
    Senator Rounds. Ms. Goodman, are you aware of the rapidly 
fluctuating water levels along the Missouri River, and do you 
or does your Department have any concerns regarding damage to 
wildlife populations as a result of water levels increasing or 
decreasing several feet overnight on a consistent basis?
    Ms. Goodman. Senator Rounds, we are aware of the 
fluctuating water levels. Obviously since 2011 I think we all 
in this area have a much heightened awareness of what's 
happening in our River here and in Lake Sharpe as well as Lake 
Oahe. So, yes, we are allattuned to what's happening. As far as 
wildlife implications, that's certainly not within our purview 
of the Department of Environment and Natural Resources. We work 
closely with our sister agency in State Government, Department 
of Game, Fish & Parks, on some of those issues. And I cannot 
speak to anything on that this morning, Senator Rounds, but if 
you would like further information, I could certainly look into 
that for you.
    Senator Rounds. I would accept that for the record. Thank 
you. And I'd like to finish just, Ms. Goodman, what's the 
status of communication between the Corps and State Government 
regarding the issue of management of the natural flows through 
the reservoir?
    Ms. Goodman. Chairman Rounds, the current communication is 
we certainly communicate with our counterparts in the Corps, 
both in Omaha as well as the--as our local contacts here with 
the Corps of Engineers. We have not had any further 
conversations with them or communications with them since at 
least a year ago on the--on the Policy Letter No. 26 that you 
have referred to and the access easements that are related to 
that, as well as the natural flows. We have indicated to them 
through the Governor--Governor Daugaard's letter on the 
proposed rulemaking regarding our impressions and our intent of 
looking at natural flows and using our authority under state 
law to issue permits under natural flows, but we have not had 
any further conversation recently.
    Senator Rounds. Thank you. Mr. Lepisto, first of all, thank 
you very much for coming in and participating in this hearing. 
In your testimony, sir, you said that the Corps should be 
looking at the potential benefits of nonstructural alternatives 
to levies. Can you explain the benefits of nonstructural 
alternatives and what it would have on fund control?
    Mr. Lepisto. We believe that nonstructural alternatives, 
Mr. Chairman, will reduce the flood stage on the lower River 
because the River would, as I mentioned, have room to roam. It 
would spread out, thus lessening the height, taking stress off 
of infrastructure downstream alleviating some of the pressure 
on both federal and private levy systems within those areas. Of 
course, this would have to be done in areas with willing 
landowners and areas that would be set up to accommodate this. 
But this would have great benefits for floodplain conductivity, 
reestablishment of wetlands, thewhole natural river bottom, 
which I mentioned in our testimony this morning, that have been 
lost or destroyed with all the changes on the River.
    Senator Rounds. Mr. Lepisto, in your testimony you discuss 
the changing conditions of the basin and that that may require 
the need for a more flexible approach to the day-to-day 
management of the River. Can you elaborate on what flexibility 
should be built into management of the River and how this allow 
the Corps to more effectively respond to events in the basin?
    Mr. Lepisto. Well, currently in the master manual, Mr. 
Chair, the Corps looks at what water is in storage in early 
March and then again on July 1 to set the release rates for 
navigation flow support. We feel that a lot can change in the 
dynamics and the hydrology of the Missouri River Basin, since 
it is so large, between March and July 1. And without being 
able to make in-season adjustments, which the current master 
manual does not allow them to do, they can't react. Their 
policy is locked in stone because they've set it on March 1 and 
until July 1. That's it. The master manual needs to be changed 
to give them that flexibility in a high flow year to make 
adjustments and, more importantly, in a low flow year to be 
able to change that flow release rate to conserve water for all 
the seven purposes that need that. So that little provision in 
the master manual would benefit everybody in the basin.
    Senator Rounds. Thank you. Also in your testimony, Mr. 
Lepisto, you say that we should undertake a comprehensive 
review of the authorized purposes of the River and that this 
could provide more savings for taxpayers. Can you explain the 
benefit of reviewing the authorized purposes of the River and 
how this would save taxpayer dollars?
    Mr. Lepisto. Basically the Missouri River, Mr. Chairman, as 
you know, is operating on a 70 year old business plan. What 
business on Main Street or anywhere else in South Dakota or any 
of the other states of the basin is still operating on 
something that was drawn up in 1944? Times have changed. 
Expectations were one thing when the '44 Flood Control Act was 
drafted. Yeah. This will work. We expect it to do this. And 
here we are seven decades later, and some of the authorized 
purposes haven't come close to meeting those 1944 expectations. 
Navigation is one-tenth of what the framework -or the writers 
of that '44 Flood Control Act thought it would do. Yet it's the 
biggest user of Missouri River water year in and year out. Why? 
Why hasn't that -that been looked at, seriously looked at and 
reviewed, in seven decades. We're still operating on what was 
expected of the system 70 years ago, and it's long overdue, in 
our opinion, that the authorized purposes go through a thorough 
review. That was started several years ago in a program called 
the Missouri River Authorized Purpose Study. That was defunded 
in an appropriation--eleventh hour appropriation act. And with 
each continuing resolution that provision that keeps that 
authorized purpose study defunded remains. And we've been under 
continuing resolutions, as you well know, for years and years 
and years in the annual budget process. But we would highly 
encourage that funding to come back so MRAPS can take a serious 
look and long overdue look at the eight authorized purposes and 
finally bring Missouri River management into the 21st Century.
    Senator Rounds. Thank you. Finally, in your testimony you 
discussed the record high releases in 2011 and the impact that 
it had on fish in Lake Oahe. Are you aware of the current 
releases along the Missouri, and do you have concerns that 
these abnormal fluctuations in water level couldimpact the fish 
and wildlife population along the River?
    Mr. Lepisto. That is a concern of ours, Mr. Chair. And I 
have been in communication with a--as Ms. Goodman mentioned, 
South Dakota Game, Fish & Parks, with some of their biologists. 
And they have been -have had some concerns particularly with 
water temperatures. When we have high releases where the water 
is withdrawn from Oahe Reservoir it's very cold water that's 
coming into the upper end of Lake Sharpe. So biologists have 
been concerned on what that may do to this year's reproduction 
of gizzard shad, a primary forage species in Lake Sharpe. They 
won't know that until they do their fall surveys on the 
recruitment and what the young of the year population is. So 
that is yet to be determined probably in late September or 
October. But there have been both positive and negative impacts 
to recreation and to anglers this summer because of the high 
flows. Some boat ramps, particularly downstream of the Pierre/
Ft. Pierre area, that are difficult to use under "normal 
conditions" of Lake Sharpe have been usable this year with the 
higher flows. But then some shore fishermen in the tailrace 
area right below Oahe Dam have not had much success because the 
current--or the discharge is so rapid that it's very difficult 
for them to fish successfully in that very popular shore 
fishing opportunity right upstream from your home.
    Senator Rounds. Very good. I want to thank all of our 
witnesses today for their participation in this hearing. I 
would make note that in the back of the room there is a sign-up 
sheet on the lectern. And just in case anybody that's here in 
the room is interested in this particular issue or these issues 
that we've talked about and they'd like to receive updates, 
please make sure that you've signed in and we'll be happy to 
put you on our list for updating the information. There are a 
couple of items that I will include and make note right now, 
including, for the record, Senator Carper who is the ranking 
member of the full committee has sent me a statement to be 
included for the record. Senator Harris, who is the ranking 
member on this committee, has also sent me a statement which we 
will accept for the record. And the Great Plains Tribal 
Chairman's Association Resolution Opposing Any Changes to Corps 
Policy that Negatively Impact Tribal Water Rights will also be 
accepted without objection for the record. This concludes our 
discussion today. I just, once again, want to thank everybody 
who is participating with us in this hearing. Our goal is to 
bring back into the--for the local community an opportunity to 
hear firsthand from the Corps what is happening with regard to 
the flow of this River that we live with every single day. And 
I most certainly appreciate all the comments, thoughts, 
suggestions of all of our witnesses here today. So, once again, 
thank you to our witnesses for taking time to be with us today. 
The record for this meeting will be open for two weeks, which 
brings us to Tuesday, September 5.
    [Whereupon, at 11:22 a.m. the committee was adjourned.]
    [Additional material submitted for the record follows.]

                Statement of Senator Thomas R. Carper, 
              U.S. Senator from the State of South Dakota

    Subcommittee Chairman Rounds, thank you for holding an 
oversight hearing in the Committee. It is extremely important 
for us to examine how Federal agencies within our Committee's 
jurisdiction are implementing legislative direction we have 
provided, such as the Water Resources Development Acts.
    As you know, the President has called for the modernization 
and rebuilding of America's aged-out infrastructure, and 
Democratic Senators released a blueprint for addressing 
infrastructure challenges earlier this year. I believe that 
members on both sides of the aisle support legislative actions 
to address this problem, but before we write legislation, we 
need to do thorough oversight of problems that may require 
additional investments such as the flooding issues associated 
with the Missouri River.
    In the winter of 2010 and 2011, a record level of snow fell 
in the northern United States Rocky Mountains and into the 
Northern Plains states. In May and early June, the snow, which 
had not melted earlier in the cool spring, rapidly melted and 
combined with a huge rainfall throughout Montana and western 
North Dakota. As a result, extensive flooding occurred in the 
Missouri and Souris River basins from June through August of 
that year. Major flooding caused over $2 billion dollars in 
damages and five fatalities.
    At a 2016 EPW Subcommittee hearing, the Committee learned 
that the Army Corps of Engineers had made little progress 
toward implementation of a legislatively required snowpack 
monitoring network because they had not submitted an 
appropriations request to Congress for the program. Further, 
the Corps lacked clarity as to which agency should take the 
lead on implementing the network, as it was a joint effort with 
other agencies.
    In response to the need for program clarity, the most 
recently passed Water Resources Development Act included 
language that directs the U.S. Army Corps to be the lead agency 
for coordinating snow pack monitoring network in the Upper 
Missouri River Basin.
    From today's testimony, I would like to learn more from the 
Corps as to whether elements of the Missouri River Management 
program should be replicated in other areas of the country. 
While traditional forms of infrastructure, like roads and 
ports, are essential to our economy, I feel we need more 
investment to protect our natural infrastructure as well, such 
as enhancing our shorelines and restoring ecosystems. Without 
natural infrastructure, storm and flood risks to man-made 
infrastructure significantly increase and, in many cases, 
become unmanageable.
    I am also interested in learning the latest as to how the 
Federal Government can be better stewards of taxpayer dollars 
by increasing the efficiency of our current funding streams to 
get the most out of every dollar of Federal investment. 
Infrastructure is a shared responsibility with States, and as a 
former Governor, I want to help the states and local 
governments with this shared burden. I also want to learn more 
about how we can make sure that we are prioritizing the most 
critical investments in our country's infrastructure.
    There is no one size fits all approach to solving this 
problem. We must work together, in a constructive and 
bipartisan way, to really address these concerns and build 
consensus on a path forward for this shared State-Federal-Local 
government responsibility to our economy and our citizens. 
Further, we must also be good stewards of our environment and 
do everything we can to support and preserve wildlife by 
developing projects that also restore habitats.
    Again, Mr. Chairman, thank you for holding this important 
hearing and I look forward to learning from our witnesses, who 
I would also like to thank for taking the time to share their 
expertise on these pressing issues.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
